<html>
<title> - MISCELLANEOUS WATER BILLS</title>
<body><pre>[Senate Hearing 109-273]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-273
 
                       MISCELLANEOUS WATER BILLS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 1025                               S. 1498

                           S. 1529                               S. 1578

                           S. 1760


                                     

                               __________

                            OCTOBER 6, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
25-997                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                    LISA MURKOWSKI, Alaska, Chairman
                  GORDON SMITH, Oregon, Vice Chairman

LARRY E. CRAIG, Idaho                TIM JOHNSON, South Dakota
RICHARD M. BURR, North Carolina      BYRON L. DORGAN, North Dakota
MEL MARTINEZ, Florida                RON WYDEN, Oregon
CONRAD BURNS, Montana                DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                MARIA CANTWELL, Washington
JAMES M. TALENT, Missouri            JON S. CORZINE, New Jersey
                                     KEN SALAZAR, Colorado

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                        Kellie Donnelly, Counsel
                Patty Beneke, Democratic Senior Counsel
                    Mike Connor, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allard, Hon. Wayne, U.S. Senator From Colorado...................     2
Blain, Gerald, Water Supply Projects Administrator, City of 
  Wichita, Kansas, Water and Sewer Department....................    15
Blickensderfer, Tom, Endangered Species Program Director, 
  Colorado Department of Natural Resources, Denver, CO...........    24
Johnson, Hon. Tim, U.S. Senator From South Dakota................    11
Kyl, Hon. Jon, U.S. Senator From Arizona.........................     1
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     1
Nelson, Lawrence K., Mayor, City of Yuma, AZ.....................    22
Rinne, William E., Deputy Commissioner of the Bureau of 
  Reclamation, U.S. Department of the Interior...................     5
Salazar, Hon. Ken, U.S. Senator From Colorado....................    10
Smith, Hon. Gordon, U.S. Senator From Oregon.....................     4
Witwer, James S., Counsel for the Northern Colorado Water 
  Conservancy District, Berthoud, CO.............................    18

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    31

                              Appendix II

Additional material submitted for the record.....................    41


                       MISCELLANEOUS WATER BILLS

                              ----------                              


                       THURSDAY, OCTOBER 6, 2005

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 p.m. in room 
SD-366 Dirksen Senate Office Building, Hon. Lisa Murkowski 
presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Good afternoon, and welcome to the Water 
and Power Subcommittee. We've got five bills before the 
subcommittee this afternoon. We have first S. 1025, sponsored 
by Senator Roberts, which authorizes a water recharge project 
in Kansas; S. 1498, sponsored by Senators Allard and Salazar, 
conveys certain water distribution facilities in Colorado to a 
local water district; S. 1529, sponsored by Senators Kyl and 
McCain, is a land swap between the Bureau and the city of Yuma, 
Arizona; S. 1578 is sponsored by Senators Allard, Salazar, 
Bennett and Hatch, and reauthorizes an Endangered Fish Recovery 
Program; and S. 1760, sponsored by Senators Smith and Wyden, 
authorizes the early repayment of contract obligations for two 
water districts in Oregon.
    I'd like to welcome you, Senator Allard, to the 
subcommittee today. You have a couple of bills here on the 
agenda, and I know that you would like to take an opportunity 
to make a couple of comments. Why don't we go ahead and ask you 
for your comments--I know you have other matters that you have 
to attend to--and then we can hear from any other Senators that 
may wish to comment.
    Senator Allard.
    [The prepared statement of Senator Kyl follows:]

 Prepared Statement of Hon. Jon Kyl, U.S. Senator From Arizona, on S. 
                                  1529

    Madam Chairman, thank you for holding this hearing on S. 1529, the 
City of Yuma Improvement Act of 2005. This bill, which I am sponsoring, 
would consolidate state and federal land ownership in a 22-acre area 
along Yuma's downtown riverfront to implement the City Council approved 
Riverfront Master Redevelopment Plan.
    Located at one of the few good crossings along the Colorado River, 
Yuma has a long, rich river heritage that includes the traditional 
crossing by the Quechan Tribe and the 49ers seeking California gold in 
the 1800s. Once a bustling and vibrant commercial hub, Yuma seeks to 
recapture this past by revitalizing the downtown riverfront. The city 
intends to build a hotel/conference center, visitors center, 
residential, and retail development.
    City authorities believe that to accomplish this revitalization, 
the land ownership in the riverfront downtown must be consolidated. 
Currently, it is a checker boarded ownership common in the West, dating 
back to the 1905 Yuma Project. The primary land owners are the City and 
the Bureau of Reclamation. In 2003, the parties agreed in principle to 
a land exchange. Essentially, the city would convey to the Bureau title 
to the land over which the Bureau rail line runs in exchange for 
several administrative parcels within the redevelopment area. The only 
thing holding back the consummation of the deal is the authority to 
accomplish it. This legislation provides that authority and the 
mechanism for transfer.
    There is broad support in Yuma for this legislated land swap given 
its public purpose objectives, thorough planning, and the economic 
opportunity it brings. I hope the Committee will work with me to secure 
swift Senate passage.

         STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR 
                         FROM COLORADO

    Senator Allard. Madam Chairman, I'm not as pressed as I was 
going to be, we had a vote scheduled at 3 o'clock and that has 
been changed. So fortunately----
    Senator Murkowski. It's changed for now.
    Senator Allard. That's right. And Madam Chairman, I 
appreciate the opportunity to appear before you and your 
committee and also recognize the presence of Senator Smith, and 
I'm glad that you're both here to take an interest in some 
legislation that's important to my State of Colorado. In fact, 
it's important to many of the States on the Colorado River 
drainage system.
    Madam Chairman, I'm here to testify in favor of two pieces 
of legislation that I have sponsored along with my colleague 
Senator Salazar, S. 1498, and S. 1578. I'd like to thank you 
for including them as a part of this hearing and for giving 
them your full consideration.
    S. 1498 would authorize the transfer of title of three 
Colorado-Big Thompson water conveyance facilities from the 
jurisdiction of the United States to the Northern Colorado 
Water Conservancy District. The three facilities involved in 
the transfer of the title are the St. Vrain Supply Canal, the 
South Platte Supply Canal and the Boulder Creek Supply Canal, 
which extends from the St. Vrain River to Boulder Creek, 
including the portion of the canal that extends from the St. 
Vrain River to Boulder Reservoir, which is also known as the 
Boulder Feeder Canal. This proposed title transfer is 
beneficial to all parties involved. It's a win-win situation. 
Following the completion of the title transfer the Federal 
Government will be relieved of liability associated with these 
facilities. But the Government and the water users can be 
assured that the transferred facilities will continue to be 
operated as they have been, and will continue to meet the needs 
of the District's water users.
    The district will gain efficiency in its water operations 
and administration of these facilities by eliminating 
duplicative Federal oversight and administering of duties. This 
will save the district and its water users unnecessary costs.
    Similar legislation was passed in 2000 that allowed the 
district to obtain full control or other portions of the water 
delivery system. This transfer, and the maintenance and 
operation of the transferred facilities have been very 
successful, and I'm confident that the district will achieve 
similar success with these facilities.
    The second bill I'd like to comment on today is S. 1578, 
the Upper Colorado and San Juan River Basin Endangered Fish 
Recovery Implementation Programs Reauthorization. The bill 
would extend authorization for two very successful programs 
which are based in Colorado, but that affect the States of New 
Mexico, Wyoming, Utah, and in fact the entire West.
    The goal of the Upper Colorado and San Juan River Basin 
Endangered Fish Recovery Implementation Programs is to provide 
the means to carry out necessary water use and development 
while recovering four endangered species of fish.
    As my colleague and good friend Senator Salazar can also 
tell you water is the lifeblood of the West. Without access to 
this precious resource communities cannot sustain themselves. 
This program is necessary to recover endangered fish and vital 
to provide water to the communities of the Colorado and San 
Juan River Basins in the West.
    I can think of few things as contentious right now as the 
Endangered Species Act. I, myself, have been outspoken on how 
we can make improvements to the Act. However, there are few 
programs which show how the Endangered Species Act could work. 
The Upper Colorado and San Juan River Basins Endangered Fish 
Recovery Implementation Program is one of them. They have 
established species recovery goals approved by the Fish and 
Wildlife Service, and have taken action toward these goals 
producing positive results. Their work on fish recovery has 
been both innovative and fruitful.
    I am grateful to the bill's co-sponsors, Senators Salazar, 
Hatch, and Bennett. Their support of this bill speaks to its 
laudable qualities. Senators from Utah, New Mexico, and 
Colorado, have supported these programs since I offered the 
original Senate authorization in the year 2000. I'm as thankful 
for their support now as I was then.
    These programs have tackled the impossible task of allowing 
access to water while actually recovering species. I'm pleased 
to go on the record stating that they are producing good 
results and should be reauthorized.
    Madam Chairman, I again send my thanks and those of my 
constituents for your consideration of these two important 
bills. I would ask that you allow me to include several letters 
of support that my office has received for each of these bills. 
I would also like to extend a warm welcome to Mr. Jim Witwer, 
who is testifying on behalf of S. 1498, and to Mr. Tom 
Blickensderfer, who is here to testify on behalf of S. 1578.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Allard follows:]

  Prepared Statement of Hon. Wayne Allard, U.S. Senator From Colorado

    As a founding member and current co-chairman of the Senate 
Renewable Energy and Energy Efficiency Caucus it is a pleasure to be 
here to help open the second Solar Decathlon.
    The Senate Renewable Energy and Energy Efficiency Caucus is a 
bipartisan caucus. The Caucus has 36 members, over 1/3 of the Senate; 
but we are always recruiting new members, so participants, encourage 
your Senators to join if they are not already members.
    I am proud to say that the University of Colorado team was the 
winner of the first Solar Decathlon--held in 2002. I'd like this year's 
team to know that I expect them to uphold CU's bragging rights.
    Nationally and internationally more attention is being given to 
clean energy technologies, by both industry and consumers.
    Great opportunities exist for solar, wind, geothermal, biomass, 
fuel cells and hydro to make significant contributions. But we should 
also focus on increasing energy efficiency. It is faster, cleaner and 
more effective to save a megawatt of power than to produce one. The 
Decathlon focuses on both clean production and conservation.
    However, there is another very important aspect of this 
competition: livability. Part of the competition is to make the houses 
not only efficient and self-sufficient, but to ensure that a normal 
household can function in them.
    I think that it is very important for people to see that homes can 
be both highly energy efficient and functional.
    Having this competition on the National Mall also helps to raise 
its profile. Each of the homes is open for the public to tour and 
enjoy.
    In closing I'd like to reemphasize the importance of the work that 
each of the teams is doing, welcome you all to Washington, and wish all 
of the teams good luck in the competition.

    Senator Murkowski. Thank you, Senator Allard. The letters 
that you've requested will be included as part of the record.
    Senator Allard. Thank you.
    Senator Murkowski. I appreciate your time here this 
afternoon.
    I would like to welcome Mr. Wayne Rinne, who's the Deputy 
Commissioner of Reclamation, who's going to be presenting the 
administration's testimony on all five of these bills. Before 
we hear from him though, I will turn to my colleague here, 
Senator Smith, for any opening comments that he may have on the 
legislation. I will also include and note for the record that 
we have received a number of letters in support of the various 
bills that we have on the calendar here this afternoon. Those 
will be included in the record as well.
    So with that, Senator Smith, if you would like to make any 
comments.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Madam Chairman. Do you have among 
your letters this one from the Harry & David Corporation? I 
would like to include it in the record.
    Senator Murkowski. I don't believe that we do. It will be 
included, if it's not in there already.
    Senator Smith. I appreciate very much your convening this 
legislative hearing to receive testimony on several pending 
water bills. I know from experience that all these site-
specific bills are important to the local entities involved. I 
believe that we must seek to resolve these water issues in ways 
that support local communities wherever possible.
    That's why I'm sponsoring one of the bills before us today, 
which is co-sponsored by my colleague from Oregon, Ron Wyden. 
S. 1760 would authorize an early repayment of obligations to 
the Bureau of Reclamation within the Rogue Valley River 
Irrigation District for the Medford Irrigation District in 
Southern Oregon. This bill will resolve issues raised by the 
Bureau's current rules for reporting requirements under the 
Reclamation Reform Act. These rules are inhibiting a major 
employer in southern Oregon from accessing certain financial 
tools. Legislation is needed in this case because the RRA 
prohibits the early repayment of outstanding obligations to the 
Bureau, unless payment was explicitly provided for in contracts 
in force at the time of their enactment.
    By authorizing the prepayment of outstanding obligations in 
these districts, we'll provide a vehicle for a corporate 
landowner to move forward with its efforts to strengthen and 
expand its business.
    This legislation will resolve a paperwork reporting 
requirement for this corporation, while not modifying the 
amount of the project water that the landowner receives.
    I'm pleased that the Bureau of Reclamation will testify in 
support of the bill today. S. 1760 will not enable this 
landowner to irrigate lands in excess of the acreage 
limitations set in law. In addition, this bill will not alter, 
amend, or modify the contractual rights that exist between the 
irrigation districts and the United States. We will not open or 
amend existing contracts. Thank you, Madam Chairman, I look 
forward to hearing the testimony today.
    And I also want to join in welcoming Deputy Commissioner 
William Rinne, who will testify on behalf of the Bureau.
    Senator Murkowski. With that, let's go to you, Mr. Rinne. 
Welcome to the subcommittee this afternoon. We appreciate your 
time and your testimony.

      STATEMENT OF WILLIAM E. RINNE, DEPUTY COMMISSIONER, 
       BUREAU OF RECLAMATION, DEPARTMENT OF THE INTERIOR

    Mr. Rinne. Thank you Madam Chairman. I would request also 
that my written testimony be made part of the record.
    Senator Murkowski. The entire testimony will be included.
    Mr. Rinne. Madam Chairman, I'm Bill Rinne, Deputy 
Commissioner for the Bureau of Reclamation and I'm pleased to 
present the Department of the Interior's views on the five 
bills before the subcommittee today: S. 1578, S. 1760, S. 1498, 
S. 1025 and S. 1529.
    First, the administration strongly supports S. 1578 to 
reauthorize the Upper Colorado River and San Juan Railroad 
Basin Endangered Fish Recovery Implementation Program. The 
goals of the programs are to recover four endangered fish 
species and allow continued operation of over 800 water 
projects. The program involves management of endangered fish by 
providing water acquiring and restoring habitat, and stocking 
and monitoring endangered fish population and habitat. The 
programs also build and operate fish hatcheries, grow-out 
ponds, fish screens, water diversion canals and fish passage 
structures.
    Congress has appropriated $46 million for these programs, 
with cost sharing provided by the States, power users and water 
users.
    S. 1578 would increase the federally-authorized ceiling, 
recognize additional non-Federal cost sharing and extend the 
construction authorization from 2008 to 2010.
    S. 1578 will continue a unique partnership to meet water 
needs in local communities while recovering endangered species. 
We urge passage of S. 1578.
    Madam Chairman, the administration is also pleased to 
support S. 1760, a bill to authorize early repayment of 
obligation to Reclamation within the Rogue River Valley 
Irrigation District and the Medford Irrigation District. All 
three districts in our Rogue River Project are subject to 
acreage limitation provisions of Federal reclamation law. A 
district may not make early repayment of constructions costs, 
unless its contract allowed this before the Reclamation Reform 
Act of 1983 became law. One of the three districts, the Talent 
District, in the Rogue River Project has such a contract today. 
As a result, a landowner who may own land in that district and 
one or more of the other two districts in the Rogue River 
Project and would like to pay out early will find that early 
repayment is allowed only in the Talent District.
    We support S. 1760's approach to treat all landowners in 
these districts equally. S. 1760 will not affect the district's 
contracts with Reclamation. However, early payout will 
accelerate repayment of these project costs to the Treasury.
    Let's turn to S. 1498, to transfer title to certain 
facilities of the Colorado-Big Thompson Project to the Northern 
Colorado Water Conservancy District. We're working diligently 
with the district to accomplish this title transfer, because we 
feel it will provide efficiencies and other benefits to all 
parties. We're in the early stages of the transfer of Northern 
Colorado. We hope to work out a memorandum of understanding 
with Northern this month. Then you can sort out the remaining 
issues and make certain that no amendments to the legislation 
are needed in the future.
    Madam Chairman, Northern Colorado is one of our most valued 
partners, and we look forward to working with you and with 
Northern to complete this title transfer efficiently and cost 
effectively.
    S. 1025 would authorize the Equus Beds Division of the 
Wichita Project. The project would recharge the groundwater in 
the Equus Beds Aquifer, adding storage underground for Wichita 
without inundating more surface area, thus reducing evaporation 
and loss of land. The Equus Beds Division is consistent with 
Reclamation's current mission. S. 1025 caps the ultimate 
Federal cost share at 25 percent or $30 million, whichever is 
less. This limits our uncertainty as to the ultimate Federal 
share. However, our tight budget prevents us at this time from 
supporting the project to a long list of currently unfunded 
projects.
    The last bill, Madam Chairman, is S. 1529, the City of Yuma 
Improvement Act. And I have, Madam Chairman, a map to the right 
that I asked someone to point out a few things. The Department 
supports the intent of S. 1529, but it could also be 
accomplished through existing land transfer processes provided 
by the General Service Administration's authority.
    Both Reclamation and the city of Yuma stand to benefit from 
S. 1529. As part of this transfer, Reclamation will obtain 
clear title to a railroad right-of-way for Reclamation's Yuma 
Desalting Plant. Meanwhile, the city of Yuma would obtain 
several parcels currently owned, but not needed by Reclamation. 
And the city will use these to further city development. We 
have no objection to transfer of these specific lands from 
Reclamation ownership.
    While none of the parcels to be exchanged have been 
appraised, we estimate that the worth of the parcel being 
conveyed to the city would not exceed $500,000.
    S. 1529 would have our unqualified support if it included a 
role for GSA in confirming that the exchange meets GSA's 
criteria for transfer without compensation to the Federal 
Government.
    This concludes my remarks. I'd be happy to try to answer 
any questions, Madam Chairman.
    [The prepared statement of Mr. Rinne follows:]

  Prepared Statement of William E. Rinne, Deputy Commissioner of the 
         Bureau of Reclamation, U.S. Department of the Interior

                               ON S. 1025

    Madam Chairman, I am William E. Rinne, Deputy Commissioner of the 
Bureau of Reclamation. I am pleased to present the Administration's 
views on S. 1025, Senator Roberts's bill to authorize the Equus Beds 
Division of the Wichita Project. Although the project has merit, 
budgetary constraints prevent the Administration from supporting the 
bill at this time.
    For water management purposes, S. 1025 would authorize this project 
as a division of the existing Wichita Project. The Equus Beds Division 
would recharge the groundwater in the Equus Beds Aquifer and would 
provide significant new underground water storage capacity for 
municipal and industrial water customers in the city of Wichita, Kansas 
without inundating large surface areas. This project would enhance the 
storage and supply capability of the Wichita Project, an above-ground 
reservoir built and owned by the Bureau of Reclamation.
    As a supplement to the existing Reclamation project, the Equus Beds 
Division is consistent with Reclamation's current mission. The fact 
that S. 1025 caps the ultimate Federal cost at 25 percent, or $30 
million whichever is less, limits uncertainty as to the ultimate 
federal share of the costs.
    Having partnered with the City of Wichita on an earlier groundwater 
recharge demonstration, Reclamation is familiar with the current 
proposal to recharge the groundwater in the Equus Beds Aquifer. 
Recharging the Equus Beds Aquifer has the potential to efficiently 
expand the effective amount of stored water that is ultimately 
available, because it significantly reduces losses due to surface 
evaporation.
    S. 1025 would require the city to pay 75 percent of the cost of 
development and 100 percent of operations and maintenance costs. The 
Federal government would not hold title to the facilities.
    Water rights for this project have been resolved. In 1998, the 
State issued the City of Wichita a conjunctive use water rights permit 
that replaced and combined two previous city permits, one for the 
Wichita Project, the other for the Equus Beds Groundwater Aquifer. By 
combining the permits for these two resources into a single, integrated 
operation, the city can more effectively and economically deliver water 
to municipal and industrial customers.
    Madam Chairman, throughout the city's planning process, including 
extensive public involvement with input from State and Federal 
agencies, no significant opposition to Equus Beds surfaced. However, 
given Reclamation's already tight budget, we are not in a position to 
support the addition of this project to the list of unfunded projects 
already authorized and awaiting Federal funding.
    Madam Chairman, this concludes my testimony and I am pleased to 
answer any questions the Committee may have.

                               ON S. 1498

    Good morning, I am William E. Rinne, Deputy Commissioner of the 
Bureau of Reclamation. I am pleased to appear before this Subcommittee 
to provide Reclamation's views on S. 1498, legislation to transfer 
title to certain water distribution facilities of the Colorado-Big 
Thompson Project (C-BT) located in Colorado, to the Northern Colorado 
Water Conservancy District. Mr. Chairman, we are working diligently 
with the District to accomplish this title transfer because we are 
convinced it has the potential to provide operations efficiencies and 
other benefits. However, we are concerned that the legislation may be 
premature because we have not yet worked out the details of the title 
transfer with the District.
    To date, our most successful transfers have relied on a simple 
plan--identify issues and obstacles at the local level and address them 
prior to the introduction of legislation authorizing the title 
transfer. Toward this end, Reclamation has a clear and collaborative 
process for title transfers. Not only has the preferred approach helped 
entities identify and address concerns of other interested parties 
early on in the process, but it has also enabled Reclamation and the 
districts to accurately predict and assign costs, and resolve other 
issues during the more flexible period preceding legislation. This 
process has been quite successful and we strongly encourage the 
District to continue to work through it with us before legislation 
advances.
    The transfer contemplated by S. 1498 has only just begun. On 
January 24 of this year, Reclamation wrote to the District, 
acknowledging its interest in title transfer and urging it to follow 
the title transfer process described above. On July 26, 2005, H.R. 3443 
was introduced in the House. On September 7, 2005, the District wrote 
Reclamation requesting that an MOU be entered into by October 7, 2005. 
We have begun working with the District on that MOU, and if no 
unexpected issues arise, we anticipate executing the MOU by October 7. 
Subsequent to the completion of that MOU, Reclamation and the District 
need to thoroughly discuss the remaining issues associated with the 
transfer of these facilities.
    Mr. Chairman, we look forward to working with you and the District 
to complete this title transfer is the most efficient and cost-
effective manner possible.
    That concludes my statement. I would be pleased to answer any 
questions.

                               ON S. 1529

    Madam Chairman, I am William E. Rinne, Deputy Commissioner of the 
Bureau of Reclamation. I am pleased to provide the Administration's 
views of S. 1529, which provides for the transfer of certain Federal 
lands managed by the Bureau of Reclamation to the City of Yuma, 
Arizona, and the receipt by the Bureau of Reclamation of clear title to 
certain parcels of land, known as the ``railroad parcels,'' which are 
used by Reclamation for its Yuma Desalting Plant. The Department 
supports the intent of this legislation, but we believe that this can 
be accomplished through existing land transfer processes provided by 
the General Service Administration's authorities.
    There would be benefits to both Reclamation and the City of Yuma 
from this land transfer. Reclamation will obtain clear title to 
portions of a railroad right-of-way required for the delivery of 
chemicals to the Yuma Desalting Plant managed by Reclamation's Yuma 
Area Office. The title to the rail property has been clouded for many 
years due to its sale by Southern Pacific Transportation Company to 
both the City of Yuma and Reclamation.
    In exchange for giving up its claim to the railroad parcels, this 
legislation provides that the City of Yuma would obtain title to seven 
parcels currently owned by Reclamation located within the City. These 
parcels total approximately 7 acres but are scattered throughout the 
City. The parcels slated for transfer are difficult for Reclamation to 
manage and are not usable for project purposes. Previously, three of 
the Federal parcels were used by the Yuma County Water Users 
Association for ditch rider residences. These residences have been 
moved to more convenient locations, and Reclamation has no further need 
for these properties or any of the other parcels listed in this 
exchange. The City of Yuma will use these properties in order to 
further the City's development plans.
    As a matter of policy, we support working with states and local 
governments to resolve land tenure and land transfer issues that 
advance worthwhile public policy objectives, and we have no objection 
to the transfer of these specific lands from Reclamation ownership. 
While none of the parcels to be exchanged has been appraised, 
Reclamation's rough estimate is that the parcels being conveyed to the 
City are not worth more than $500,000. We view this as a directed 
exchange by Congress, not an equal value exchange.
    We think that the end goal of transferring the lands in question to 
the City is laudable, but we note that this legislation provides for a 
directed exchange that avoids the normal procedures followed for 
Federal land disposal. The value to the United States of clear title to 
the railroad parcels is uncertain. The lack of established value from 
the railroad parcels does not compel opposition to the proposed 
transfer, however, because in the absence of legislation, an 
administrative process exists through which the General Services 
Administration (GSA) can accomplish the intended purpose of this 
legislation. The Administrator of GSA can make government-owned land 
available at no cost to cities such as Yuma for a variety of public use 
purposes, such as public health, public education, for historic 
monuments, airports, parks and recreation, emergency rescue, fire 
fighting, law enforcement, and many other public uses. We could support 
this legislation if it included a role for GSA in ensuring that the 
lands to be transferred meet GSA's criteria for transfer to the City 
without compensation to the Federal government.
    This concludes my statement. I am pleased to answer any questions.

                               ON S. 1578

    Madam Chairman and members of the Committee. Thank you for the 
opportunity to appear today on behalf of the Administration in support 
of S. 1578, a bill to reauthorize the Upper Colorado River and San Juan 
River Basin endangered fish recovery implementation programs. The 
Administration commends Senator Wayne Allard for introducing the bill 
and Senators Bennett, Hatch, and Salazar for cosponsoring this measure.
    The Upper Colorado River Endangered Fish Recovery Program and the 
San Juan River Basin Recovery Implementation Programs were established 
in 1988 and 1992, respectively. The goals of the programs are to 
recover four endangered fish species in a manner consistent with state 
and tribal laws, interstate compacts, the Endangered Species Act, other 
federal laws, and Indian trust responsibilities while water development 
proceeds. Participants in these two programs include the States of 
Colorado, New Mexico, Utah, and Wyoming; federal agencies, including 
the Bureau of Reclamation, Fish and Wildlife Service, Western Area 
Power Administration, National Park Service, Bureau of Land Management, 
and Bureau of Indian Affairs; American Indian tribes including the 
Navajo Nation, Jicarilla Apache Nation, Southern Ute Tribe, and Ute 
Mountain Ute Tribe; water users; power users; and environmental 
organizations.
    Actions taken by the Programs to recover the Colorado pikeminnow, 
humpback chub, razorback sucker, and bonytail meet Endangered Species 
Act (ESA) requirements for operation of federal multi-purpose projects, 
water projects benefiting the tribes, and non-federal water projects. 
Activities and accomplishments of these programs provide ESA compliance 
for more than 800 federal and non-federal water projects depleting 
approximately 2.5 million acre-feet per year in the Upper Colorado 
River and San Juan River Basins.
    Recovery Implementation Program actions include providing water for 
endangered fish, managing nonnative fish species, restoring habitat, 
stocking endangered fish, and researching and monitoring fish 
populations and habitat. The Recovery Implementation Programs' 
construction elements include construction and operation of fish 
hatcheries and grow-out ponds, fish screens in water diversion canals, 
fish passage structures around migration barriers, and restoration and 
maintenance of floodplain habitats.
    Congress authorized federal expenditures for these programs in 
Public Law 106-392, recognizing cost sharing provided by the states, 
power users, and water users. A total of $100 million for construction 
was authorized for the two programs. Congressional appropriations are 
providing $46 million; Western Area Power Administration is providing 
$17 million from power sales revenue (this is considered a contribution 
by local power users); the states of Colorado, Utah, Wyoming and New 
Mexico are providing $17 million; plus an additional $20 million in 
benefits foregone from power users and water users.
    With indexing for inflation, the authorized Federal amount for 
construction of projects in the Upper Colorado River Basin is now $64.5 
million. Current total estimated costs are $77 million, indicating an 
estimated shortfall in authorization of approximately $12.5 million.
    The estimated additional costs and time to complete Upper Colorado 
River Basin construction elements result from:

  <bullet> increasing construction costs, energy costs, and the world 
        market demand for steel;
  <bullet> delayed construction due to property acquisition issues; and
  <bullet> additional components and design features as identified 
        necessary from previous construction of fish passages and 
        screens.

    This bill would amend Public Law 106-392 (as amended by Public Law 
107-375) by:

  <bullet> increasing the Federal authorized ceiling by $15 million for 
        capital construction for the Upper Colorado River Recovery 
        Program, for a total of $61 million;
  <bullet> recognizing an additional $11 million in non-federal cost 
        sharing from water users and power revenue losses over the 
        original $20 million from these sources, bringing the non-
        Federal share to $65 million; and
  <bullet> extending the construction authorization period of both 
        Recovery Implementation Programs from 2008 to September 30, 
        2010.

    Enactment of this bill will allow these Recovery Implementation 
Programs to complete construction projects critical to the recovery of 
the four endangered fishes and ensure continued successful water 
management for multiple uses. S. 1578 provides a unique opportunity to 
sustain a partnership combining federal and non-federal funding in an 
ongoing effort to recover endangered species while fully recognizing 
and meeting the water needs of local communities. We urge passage of S. 
1578.
    This concludes my testimony. I am happy to answer any questions.

                               ON S. 1760

    Madam Chairman, I am William E. Rinne, Deputy Commissioner of the 
Bureau of Reclamation. Thank you for the opportunity to testify in 
support of S. 1760, a bill to authorize early repayment of obligations 
to the Bureau of Reclamation within the Rogue River Valley Irrigation 
District or within the Medford Irrigation District.
    I am pleased to present the Department's views in support of S. 
1760. There are three districts in our Rogue River Project that are 
subject to the acreage limitation provisions of Federal reclamation 
law. Under section 213 of the Reclamation Reform Act of 1982 (RRA), 
early repayment of a district's construction costs is prohibited unless 
the district's repayment contract with Reclamation included a provision 
allowing for early repayment when the RRA was enacted.
    One of the three districts in the Rogue River Project has such a 
provision (specifically, the contract with Talent Irrigation District). 
As a result, a landowner who may own land in Talent Irrigation District 
and one or both of the other two districts in the Rogue River Project 
and would like to payout early would find that early repayment is 
allowed in only one of the districts. We support S. 1760's approach to 
allow early repayment in all three districts within this particular 
project. This legislation would accomplish such by providing early 
repayment authority to landowners in the Rogue River Valley Irrigation 
District and the Medford Irrigation District. Early payout would 
accelerate the repayment of these project costs to the United States 
Treasury.
    This concludes my written statement. I am pleased to answer any 
questions.

    Senator Murkowski. Thank you, Mr. Rinne, and I apologize 
for mispronouncing your name there.
    Senator Salazar has joined us. Senator, if you would care 
to make a couple of comments, particular for those issues that 
you have an interest in, and then we can move to the questions. 
And Senator Johnson, the invitation is open to you as well. 
Welcome.
    Senator Salazar.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Madam Chairwoman, for 
agreeing to hold this hearing. There are a number of important 
bills before us today. I'm proud to be a co-sponsor of two of 
these bills with Senator Allard, S. 1498 and S. 1578.
    I would like to welcome to the U.S. Senate my good friend 
Tom Blickensderfer, and my good friend Jim Witwer, who is 
counsel for the Northern Colorado Water Conservancy District.
    S. 1498 would direct the Secretary of the Interior to 
transfer title to certain water distribution facilities in the 
Northern Colorado Water Conservancy District. The district has 
fulfilled its obligation to repay the capital costs of these 
facilities under a three payment contract. Transfer of these 
facilities would lead to greater flexibility, Federal water 
efficiencies, and certainty for the district as it meets the 
demanding future needs of water users in northern Colorado.
    The district, under the direction of the U.S. Congress, 
received title to similar facilities on the northern end of the 
system under Public Law 106-376. The successful title transfer 
has greatly benefited water users in northern Colorado and has 
led to more efficient uses of water and assists in system 
flexibility of water delivery.
    Our bill is drafted similarly to Public Law 106-376, which 
provides a useful model for this legislation.
    S. 1578, would reauthorize the Upper Colorado and San Juan 
River Basin Endangered Fish Recovery Implementation Programs. I 
am pleased that Senator Bingaman has agreed to co-sponsor this 
bill, and I thank him for that effort. This recovery program, 
first established in 1988, continues to be a great success for 
the States of water permit Colorado River. It is a national 
model for cost-effective public and private partnerships 
working to recover endangered species, while allowing much 
needed water development to occur. As a result of concerted 
efforts to manage northern pike and small mouth bass in certain 
river reaches--the program will help ensure that the humpback 
chub, bonytail, Colorado pikeminnow, and the razorback sucker 
remain the heritage of the West.
    Thank you Madam Chairman, I look forward to today's 
testimony.
    Senator Murkowski. Thank you.
    Senator Johnson, would you care to add any opening 
comments?

          STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR 
                       FROM SOUTH DAKOTA

    Senator Johnson. I have some comments that I'd submit for 
the record, and I think we'll leave it at that. Thank you, 
Madam Chairman.
    [The prepared statement of Senator Johnson follows:]

 Prepared Statement of Hon. Tim Johnson, U.S. Senator From South Dakota

    Thank you, Madame Chairman. I would like to extend a welcome to 
Deputy Commissioner Rinne of the Bureau of Reclamation, and to the 
other witnesses who have traveled here to provide us with their views 
on the bills before the sub-committee.
    I'd just like to quickly point out that the full Committee held a 
mark-up last week in which we approved 6 bills out of the Water & Power 
sub-committee. All were non-controversial which is a testament to how 
well things can work when the Administration, the staff, and the 
parties involved all work together. I hope that continues to be the 
case so that the sub-committee remains productive and continues to move 
legislation important to our constituents.
    Thank you for your leadership in that effort Madame Chairman. I 
look forward to today's testimony.

    Senator Murkowski. Thank you. We'll include those.
    Let's start the questioning with Mr. Rinne.
    Senator Salazar just spoke to S. 1498, and made reference 
to Public Law 106-376, and that referenced a similar model. Was 
the title transfer accomplished under the direction of that 
Public Law considered by the Bureau to be successful? And then 
along these same lines, what are the differences between the 
title of the transfer of the facilities involved in what we're 
dealing with here under S. 1498, as opposed to what we saw in 
Public Law 106-376?
    Mr. Rinne. I assume you're talking about the earlier title 
transfer with Northern? Madam Chairman, we do consider that the 
first one was successful. I think if I talk about differences I 
would say I'm not sure there's lots of differences in terms of 
process, at least that we would prefer to use, which is to try 
to get together and work with Northern now and try to identify 
any issues that we have to address, and move into evidence in a 
memorandum of understanding. So we kind of know who's going to 
do what and where there are costs associated with it, and who 
will be paying those, and then move ahead.
    I think the way we always prefer it to be would be is if we 
could work out as many of those things in the front end--the 
checklist and MOU of the process--and then try to minimize the 
work at the end of it, when we get through legislation. I mean 
that's when things work best from our end. I recognize that 
that particular process does not go in that order. I think in 
fact we actually may have had legislation in before we were 
able to move on through with the checklist. But yes, we thought 
it was a successful process and I think other than that, we 
would look forward to this moving forward as quickly as we 
could.
    Senator Murkowski. Has the Bureau calculated the amount 
owed under the ``aid-to-irrigation'' repayment obligation?
    Mr. Rinne. There's nothing to my knowledge. It's fully paid 
out on these facilities, so there is no repayment obligation 
that's owed from the district at this time.
    Senator Murkowski. Let's go up to S. 1025, the Wichita 
Project. Does the Bureau have an estimate of the total cost of 
this proposed project? I thought I heard you say $30 million.
    Mr. Rinne. A good $30 million is right. I will look. If 
it's important, I'll be glad to----
    Senator Murkowski. I wrote 30 down and I wasn't sure if 
that was the total cost. Now I understand that the Bureau was 
involved in the Water Recharge Demonstration Project within the 
city of Wichita, that became the basis for this project 
proposal. Can you describe the Bureau's involvement in that 
particular project, and whether, again, that was a successful 
project?
    Mr. Rinne. Madam Chairman, I think it was very successful. 
And, again, it was a project where several alternatives were 
looked at. In other words, this one that we're talking about 
would involve underground storage, but at the same time there 
were some alternatives, things such as--it's part of the 
Wichita Project--things like increasing the size of the 
existing storage reservoir, and other ways to augment the water 
supply. So there were several public meetings, there were 
Federal and non-Federal parties that were involved in this 
process, and we think it went well to kind of narrow down and 
focus on what we really knew would make a good project in this 
case. So, yes, we think it was real successful.
    Senator Murkowski. Good. With regard to the City of Yuma 
Improvement Act, how long has the Bureau worked with the city 
on this proposed land swap?
    Mr. Rinne. This particular one, to actually do this 
transfer at this time, this has come up and moved to the 
forefront, rapidly, more recently. The purchase, for example, 
of the railroads that you saw, that's where some of the 
involvement is. There's some city land, some reclamation land 
in there. That dates back several years in there, and it's been 
a--it continues to be kind of a cloudy title situation. It's 
one that I think, if we can clear it up, it will help both the 
city and the Bureau of Reclamation in purposes needed.
    Senator Murkowski. And as far as the parcels to be conveyed 
here, the Federal and non Federal parcels are they same fair 
market value, in equal exchange.
    Mr. Rinne. The one thing we don't have--we do not have a 
value today as to what the railroad right-of-way property would 
be. The other property--and I use the word rough, I don't know 
if I even want to say an appraisal, but the initial estimate is 
around less than probably $500,000. I think they're fairly 
close, but I think I'd want to check on that one, rather than 
say that without knowing for sure.
    Senator Murkowski. And if you could let us know on that 
we'd appreciate it.
    Mr. Rinne. We can do that.
    Senator Murkowski. I think at this time I will go to 
Senator Smith, and see if there are additional questions. Do 
you object? Okay.
    Senator Salazar.
    Senator Salazar. I have no questions.
    Senator Murkowski. Senator Johnson? You guys must really 
like your legislation. And that's a good thing.
    Senator Johnson. Let me follow up just a bit on the city of 
Yuma issue again. Is it the administration's position that it 
already owns fee title to the railroad process?
    Mr. Rinne. Senator, some parts of it. My understanding on 
this issue is that, if you look at the parcel, the part that we 
were looking for, to transfer it, it's in the blue up on the 
map, we currently would own that. That would clear that up. 
Other parts of it. That's a spur, it kind of goes on out in the 
valley and goes to the base of where this--plants. So some of 
it we know--this we do not have. We do not have clear title to 
that.
    Senator Johnson. Is there any chance that either the city 
or Reclamation could recover on a claim against the Southern 
Pacific Transportation Company, which allegedly sold the 
parcels to each party?
    Mr. Rinne. I don't know the answer to that. I can follow up 
with you and ask some of the people about that, but I don't 
know the answer to that.
    Senator Johnson. Given your testimony that S. 1529 does not 
represent an equal value exchange, is it correct then to state 
that Reclamation does not believe clear title to the railroad 
parcels has significant value?
    Mr. Rinne. Clearing title to the railroad parcel does have 
significant value to us as far as getting the title cleared in 
that, yes.
    And the reason again would be so that we're sure we can 
operate that. Should we ever operate that plant, we'd want to 
have that cleared.
    Senator Johnson. You made reference to GSA's criteria for 
land transfers that provide no compensation to the Federal 
Government, I wonder if you can give us an idea as to what 
those criteria are.
    Mr. Rinne. In the transfer we would look at things such as 
value of the transfer of the property that's being transferred. 
I think they would also look at the public use end of it. We'd 
be talking about that on some of the Federal lands. And they 
would--you know the value thing of course would come in to make 
sure that there wasn't a loss to the Federal interest on it.
    Senator Johnson. Relative to S. 1760, you indicated that 
only one of the three irrigation districts involved in the 
Rogue River Project had a repayment contract that allowed for 
early retainment. Was there any policy reason at the time the 
contracts were developed to quit treating the districts 
differently?
    Mr. Rinne. Senator, I don't know that. I did look. Before I 
came over I was kind of digging. In fact, I went back and 
looked at the project history a little bit to see if I could 
pick that out, and I couldn't. I can follow up on it. Although 
the other two were kind of handled together, it just looks like 
they went forward together and it may have just been the nature 
of the contract. We run into that sometimes in our different 
contracts, in different projects, even though this one's the 
same way, you'll look at them and they'll be a provision in 
there that was negotiated and there wasn't in others.
    Senator Johnson. Very good. Madam Chairman, I have some 
other obligations that I'm going to have to excuse myself for, 
but if I may, I have some written questions that I'd like to 
leave with the committee and have the panel members respond to.
    Senator Murkowski. We will certainly do that. I appreciate 
you being here this afternoon, Senator Johnson.
    Just a couple of follow-ups here, Mr. Rinne. Going back to 
the city of Yuma, you had stated that the intent of S. 1529 
could be accomplished administratively through existing GSA 
processes; can you describe how that would work?
    Mr. Rinne. I can't give you all the steps, but I can tell 
you it would be an administrative process that would require, 
among other things, noticing. There may or may not be a public 
meeting part. There's certainly noticing of this that's going 
on. There would probably be a search of the title records. You 
know, there's a little longer-term process that would have to 
go on here with a GSA process to run it through. And they would 
run that through and at the end of that time--and I suppose the 
other thing is, it would have to get onto their agenda, if you 
would. You know their timeline. There's a lot of--I'm sure they 
have a lot of things in front of them, so it would depend on 
when that actually was put in front of them.
    Senator Murkowski. Okay. Thank you. S. 1760, the 
authorization of early repayment to the Bureau of Reclamation 
repayment, what are the outstanding capital obligations that 
are owed to the Bureau by the two irrigation districts?
    Mr. Rinne. I will get back to you on that.
    Senator Murkowski. Thank you. And one final question, 
regarding S. 1578, which extends the authorization for the 
Capital Construction Projects through the year 2010, is the 
current authorization not adequate to make construction 
schedules, and that's why we've pushed it out?
    Mr. Rinne. That's correct, Senator, there are a couple of 
reasons I can think of in just doing the construction. 
Sometimes we found that there are some other prerequisites, and 
its taken a little longer. That would be one of the reasons 
that I understand. Another thing is sometimes we found out as 
we--I'll just take an example, it may not be a good one, but 
like a fish pass, if we're trying to design something, we've 
learned as we went along in this program and we find out that 
there's more to the construction of it than we thought, there's 
a longer construction period, or a longer design period. It's 
that type of thing I think that's moved this a little bit. I 
think there's real progress, I just think that there's more 
left to be done.
    Senator Murkowski. Okay. All right. So thank you, I 
appreciate your testimony here this afternoon, and your work 
that you do on behalf of the Bureau. Thank you.
    Mr. Rinne. Okay. Thank you very much, Senator. Thank you.
    Senator Murkowski. With that, we will move to the second 
panel. All right. We welcome to the second panel. Mr. Jerry 
Blain, the water supply projects administrator for the city of 
Wichita Water and Sewer Department, in Wichita, Kansas, 
welcome. We also have the Honorable Larry Nelson. Mayor Nelson 
is from the city of Yuma, Arizona. Welcome, Mr. Mayor. Mr. Jim 
Witwer, the counsel for the Northern Colorado Water Conservancy 
District located in Berthoud, Colorado. And Mr. Tom 
Blickensderfer, endangered species program director for the 
Colorado Department of Natural Resources out of Denver. Welcome 
to you this afternoon.
    Why don't we go from my left, beginning here with you. Mr. 
Blain, if you would give us your testimony. Welcome.

      STATEMENT OF GERALD T. BLAIN, WATER SUPPLY PROJECTS 
    ADMINISTRATOR, CITY OF WICHITA, KANSAS, WATER AND SEWER 
                           DEPARTMENT

    Mr. Blain. Thank you, Madam Chairman.
    Senator Murkowski. And thank you all for traveling this 
distance, we appreciate.
    Mr. Blain. Thank you, Madam Chairman, members of the 
committee, I appreciate the opportunity to talk to you this 
afternoon. The city of Wichita, Kansas has had water supply 
wells in the Equus Beds Aquifer for over 60 years, and has been 
a major source of the city's drinking water. However, because 
of excess pumping from the aquifer by municipal and 
agricultural users, by 1992, water levels in the aquifer had 
declined up to 40 feet from their pre-development levels.
    Because of this overdevelopment, the Equus Beds Aquifer is 
threatened by saltwater contamination from two sources. One 
source is natural saltwater from the Arkansas River this is 
located along the southwest border of the city's wellfield. The 
other source is oilfield brine contamination left over from the 
development of oil wells in the Burton area in the 1930's, 
which is located northwest of the wellfield.
    Groundwater modeling by the Bureau of Reclamation indicates 
that the chloride levels, which are an indicator of salinity, 
could exceed the standard for drinking water in much of the 
wellfield by the year 2050. In order to protect the water 
quality of the area, steps must be taken to retard the movement 
of the salt-water plumes.
    In 1993, the city of Wichita began implementation of a 
unique integrated local water supply plan that is intended to 
meet the city's water supply needs through the year 2050. The 
city's plan uses a variety of local water resources to meet 
water needs. Rather than requiring the city to transfer water 
from a remote reservoir in Northeast Kansas, a key component of 
the plan includes an Aquifer Storage and Recovery, or ASR, 
project to recharge the city's existing wellfield in the Equus 
Beds.
    The excess pumping from the aquifer, and the resulting 
water level decline, has created a storage volume of almost 65 
billion gallons that can be used to store water. The basic 
concept of the city's ASR project is to capture water from the 
Little Arkansas River and use it to recharge the aquifer. 
Computer modeling, and past experience at other sites 
throughout the country, has found that recharging the aquifer 
can help turn the hydraulic barrier to retard the movement of 
the salt-water plumes. In addition, the 65 billion gallons that 
could be stored in the dewatered portion of the aquifer could 
be used as a component of the city's water supply.
    Because all of the ``conventional'' water rights in the 
river have already been allocated, the city will only be able 
to use excess flows in the river, which occur only after it 
rains or snows. These events occur often enough to capture 
enough water to recharge the aquifer and become a valuable 
component of the city's water supply. Now this project can only 
capture a fraction of the water flowing down the river, and it 
would not have a negative impacts on the river.
    The city recognized that some of the concepts included in 
the proposed ASR project have not been done before, so to prove 
the feasibility of those concepts the city completed a 5-year 
demonstration project. During the demonstration project, which 
was done in partnership with the Bureau of Reclamation and the 
U.S. Geological Survey, the city constructed a full-scale well 
adjacent to the Little Arkansas River, a river intake and a 
water treatment plant, as well as a number of recharge 
facilities.
    To prove that the recharge project was safe, over 4,000 
water samples were collected and analyzed for up to 400 
different contaminates. During the demonstration project, over 
one billion gallons of water were successfully recharged into 
the aquifer, and the city was able to prove that excess flows 
in the Little Arkansas River could be captured and recharged, 
and that it can be done without harming the aquifer.
    The full-scale ASR project, which will be constructed in 
phases, will capture and recharge up to 100 million gallons per 
day of water, and will cost approximately $137 million. All of 
the water that will be recharged into the aquifer must meet 
drinking water standards.
    The city of Wichita and others believe that the ASR project 
is a win-win project, because it appears that all of the 
stakeholders receive benefits from the project. As a result of 
this project, the city develops a water supply source that will 
allow it to meet its water supply needs through the year 2050; 
the water quality of the wellfield is protected from salt-water 
contamination; there is no requirement to curtail irrigation to 
restore water levels and protect water quality; irrigators will 
have lower pumping costs, because water levels will be higher; 
low flows in the Little Arkansas River will improve, because 
additional water will ``leak'' from the equus beds back into 
the river; and the project uses less land than any other 
surface water development project.
    Phase I of the ASR Project, which is currently being 
designed, will have the capacity to recharge up to 10 million 
gallons per day of water from the river. The location of the 
first recharge facilities is intended to begin the formation of 
a hydraulic barrier to the movement of the salt-water plume 
from the Burton area. It will take almost 10 years to construct 
all of the components of the full-scale project.
    The city believes that this project represents a new 
approach to developing water resources, while at the same time 
protecting an existing water resource from contamination. The 
city of Wichita therefore urges support for Federal assistance 
for this unique project.
    [The prepared statement of Mr. Blain follows:]

  Prepared Statement of Gerald T. Blain, P.E., Water Supply Projects 
Administrator, City of Wichita, Kansas, Water and Sewer Department, on 
                                S. 1025

    The City of Wichita, Kansas has had water supply wells in the Equus 
Beds Aquifer for over 65 years, and the aquifer has been a major source 
of the City's drinking water. However, because of excess pumping from 
the aquifer by municipal and agricultural users, by 1992 water levels 
in the aquifer had declined up to 40 feet from their pre-development 
levels. Because of this over development, the Equus Beds aquifer is 
threatened by saltwater contamination from two sources. One source is 
natural saltwater from the Arkansas River located along the southwest 
border of the City's wellfield. The other source is oilfield brine 
contamination left over from the development of oil wells in the 
Burrton area in the 1930's, located northwest of the wellfield. 
Groundwater modeling by the Bureau of Reclamation indicates that the 
chloride levels, which are an indicator of salinity, could exceed 300 
mg/l in much of the wellfield by the year 2050. This would be above the 
250 mg/1 standard for drinking water. In order to protect the water 
quality of the area, steps must be taken to retard the movement of the 
salt-water plumes.
    In 1993 the City of Wichita began implementation of a unique 
Integrated Local Water Supply Plan that is intended to meet the City's 
water supply needs through the year 2050. By the year 2050 it is 
projected that the City's water supply needs will almost double what 
they are now. The City's Plan uses a variety of local water resources 
to meet water needs, rather than requiring the City to transfer water 
from a remote reservoir in Northeast Kansas. A key component of the 
Plan includes an Aquifer Storage and Recovery (ASR) project to recharge 
the City's existing wellfield in the Equus Beds Aquifer.
    The excess pumping from the aquifer, and the resulting water level 
decline, has created a storage volume of almost 65 billion gallons that 
can be used to store water. The basic concept of the City's ASR project 
is to capture water from the Little Arkansas River and use it to 
recharge the aquifer. Computer modeling, and past experience at other 
sites throughout the country, has found that by recharging the aquifer 
a hydraulic barrier can be created that would retard the movement of 
the salt-water plumes. In addition, the 65 billion gallons that could 
be stored in the dewatered portion of the aquifer could be used as a 
component of the City's water supply.
    Unfortunately, all of the ``conventional'' water rights in the 
Little Arkansas River have already been allocated. However, excess 
flows in the river, which occur only after it rains or snows, have not 
been allocated. Computer modeling has predicted that excess flow events 
occur with enough frequency to allow enough water to be captured and 
recharged to become a valuable component of the City's water supply. 
The modeling predicts that if the City builds an ASR system with the 
capacity to capture up to 100 million gallons per day, that it would 
still capture only a fraction of the water flowing down the river, and 
it would not have a negative impact on the river.
    The City intends to capture water from the river using two 
techniques, either by using ``bank storage'' wells or by pumping 
directly from the river. ``Bank Storage'' wells take advantage of a 
unique geological condition that occurs along the river. As the river 
rises above the base flow, water is temporarily stored in the river's 
banks, but as the flow in the river declines, the water in the banks 
discharges back into the river. The City intends to drill wells 
adjacent to the river that will capture ``bank storage'' water and 
induce river water to replace the water pumped.
    The City recognized that some of the concepts included in the 
proposed ASR project have not been done before, so to prove the 
feasibility of those concepts the City completed a five-year 
Demonstration Project. During the Demonstration Project, which was done 
in partnership with the Bureau of Reclamation and the U.S. Geological 
Survey, the City constructed a full-scale well adjacent to the Little 
Arkansas River, a river intake and a water treatment plant, and a 
variety of recharge facilities. To prove that the recharge project was 
safe, over 4,000 water samples were collected and analyzed for up to 
400 different potential contaminates. During the Demonstration Project 
over one billion gallons of water were successfully recharged into the 
aquifer, and the City was able to prove that excess flows in the Little 
Arkansas River could be captured and recharged, and that it can be done 
without harming the aquifer.
    The full-scale ASR project, which will be constructed in phases, 
will capture and recharge up to 100 million gallons per day, and will 
cost approximately $137 million. All of the water that will be 
recharged into the aquifer must meet drinking water standards, and will 
be monitored and regulated by the Kansas Department of Health and 
Environment and the U.S. Environmental Protection Agency.
    Normally, when surface water is developed for a water resource, it 
requires the construction of a reservoir. A reservoir that would 
provide the same storage as this ASR project would probably consume 
around 25,000 to 30,000 acres of prime farmland. It is projected that 
the ASR project will use less than 400 acres of farmland.
    The City of Wichita and others believe that the ASR project is a 
Win-Win project, because it appears that all of the stakeholders 
receive benefits from the project. As a result of this project:

  <bullet> The City develops a water supply source that will allow it 
        to meet its water supply needs through the year 2050.
  <bullet> The water quality of the wellfield is protected from salt-
        water contamination.
  <bullet> There is no requirement to curtail irrigation to restore 
        water levels and protect water quality.
  <bullet> Irrigators will have lower pumping costs because water 
        levels will be higher.
  <bullet> Low flows in the Little Arkansas River will improve, because 
        additional water will ``leak'' from the Equus Beds back into 
        the river.
  <bullet> The project uses less land than any other surface water 
        development project.

    The City has already implemented some components of the Integrated 
Local Water Supply Plan, including implementation of a water rate 
structure designed to reduce water consumption, and a greater emphasis 
on using water from Cheney Reservoir, and a corresponding reduction in 
water pumped from the Equus Beds. That alteration in water use has 
already allowed water levels in the Equus Beds to rise over 20 feet in 
some areas.
    Phase I of the ASR Project, which is currently being designed, will 
have the capacity to capture and recharge up to 10 million gallons per 
day of water from the Little Arkansas River by using Bank Storage 
wells. The location of the first recharge facilities is intended to 
begin the formation of a hydraulic barrier to the movement of the salt-
water plume from the Burrton area. It will take almost 10 years to 
construct the entire full-scale project.
    The City believes that this project represents a new approach to 
developing water resources, while at the same time protecting an 
existing water resource from contamination. The City of Wichita 
therefore urges support for federal assistance for this unique project.

    Senator Murkowski. Thank you, Mr. Blain.
    Next is Mr. Witwer. Welcome.

  STATEMENT OF JIM WITWER, COUNSEL FOR THE NORTHERN COLORADO 
            WATER CONSERVANCY DISTRICT, BERTHOUD, CO

    Mr. Witwer. Thank you and good afternoon, Madam Chair, and 
members of the committee. My name is Jim Witwer. Our law firm--
Trout, Raley, Witwer and Freeman--is general counsel for the 
Northern Colorado Water Conversancy District. Thank you for the 
opportunity to testify before the subcommittee today on a 
proposed transfer of title of three single-purpose water 
conveyance facilities of the Colorado-Big Thompson Project from 
the United States to the Northern Colorado Water Conservancy 
District, as proposed in S. 1498.
    The district is the local sponsor and contract beneficiary 
of the Colorado-Big Thompson Project, the largest transmountain 
diversion project in the State of Colorado. The district 
entered into a repayment contract with Reclamation in 1938, 
which defines the contractual obligations of both the district 
and Reclamation associated with the design, construction, 
operation, maintenance, administration and repayment of the 
project, and grants to the district the perpetual right to the 
water yielded from the project. Construction of the project 
began in 1938 and was completed in 1957, when the project was 
placed into full operation.
    The three facilities involved in this transfer of title, in 
this legislation include the St. Vrain Supply Canal, the 
Boulder Creek Supply Canal, and the South Platte Supply Canal.
    The location of these facilities are shown on the map, 
which is an enlargement of the map in exhibit A, accompanying 
my written testimony to my right.
    The C-BT Project diverts water from the headwaters of the 
Colorado River and conveys the water under the Continental 
Divide to the eastern slope of Colorado. Once on the eastern 
slope, the water flows through five hydroelectric generating 
plants to two eastern slope terminal storage reservoirs, the 
Horsetooth and Carter Lake Reservoirs.
    From these terminal storage reservoirs, the project's water 
supply is delivered to water users within district boundaries 
through the project's single-purpose water conveyance 
facilities.
    Since completion of the project in 1957, the district has 
been solely responsible for performing and paying for the 
operation, maintenance, and administration of all the project's 
single-purpose water conveyance facilities. These activities 
have been carried out under the oversight, but without the 
extensive involvement, of Reclamation.
    In 2000, the title to the four single-purpose water 
conveyance facilities located downstream of Horsetooth 
Reservoir was transferred from the United States to the 
district under the authority of Public Law 106-376.
    S. 1498 is very similar to Public Law 106-376. It would 
authorize the transfer of title of the C-BT project's three 
remaining single-purpose water conveyance facilities, which are 
located downstream of Carter Lake Reservoir.
    The provisions of these two pieces of legislation are 
nearly identical. We simply ask that Congress once again 
support a successful transfer of title as it did in 2000 with 
the passage of Public Law 106-376.
    The function and operation of the proposed transferred 
facilities will not be altered or modified as a result of the 
passage of this legislation, and the facilities will continue 
to be operated to meet the needs of the water users within the 
district boundaries by C-BT project water supplies.
    A special provision of S. 1498 addresses the South Platte 
Supply Canal. During project development, an agreement was 
reached with two local ditch companies which allowed the United 
States to enlarge the companies' canal to accommodate the 
diversion and conveyance of C-BT Project water from Boulder 
Creek to the South Platte River, and to allow the continuing 
diversion, conveyance, and delivery of the companies' water 
supplies. S. 1498 would allow the companies' use of the South 
Platte Supply Canal to continue and be unaffected by the 
transfer of title for this facility.
    All financial obligations associated with these facilities 
were met. The ``aid-to-irrigation'' financial component 
associated with these facilities is an obligation of the C-BT 
project power beneficiaries, and is addressed in the proposed 
legislation. Further, all Federal liability associated with the 
operations of these facilities will be eliminated as a result 
of the transfer of title.
    S. 1498 will improve the efficiency of these facilities by 
eliminating the redundant and unnecessary oversight role now 
being performed by Reclamation. This will save the district and 
its water users unnecessary costs.
    This legislation is actively supported by local water 
interests. Letters supporting the introduction of this 
legislation are included as exhibit D to my written testimony. 
We respectively urge this legislation be moved forward to 
accomplish this transfer of title as soon as possible.
    Thank you.
    [The prepared statement of Mr. Witwer follows:]

    Prepared Statement of James S. Witwer, Counsel for the Northern 
            Colorado Water Conservancy District, on S. 1498

                            I. INTRODUCTION

    S. 1498 would authorize the transfer of title of three Colorado-Big 
Thompson (C-BT) Project single-purpose water conveyance facilities from 
the United States to the Northern Colorado Water Conservancy District 
(District). The District is the contract beneficiary of the C-BT 
Project. The three facilities involved in this transfer of title 
include:

          1. The St. Vrain Supply Canal;
          2. The Boulder Creek Supply Canal that extends from the St. 
        Vrain River to Boulder Creek. This facility also includes that 
        portion of the canal that extends from the St. Vrain River to 
        Boulder Reservoir, which is also known as the Boulder Feeder 
        Canal; and
          3. The South Platte Supply Canal.

    The locations of these facilities are shown on the map in Exhibit A 
accompanying this testimony. The physical dimensions and description of 
each of the facilities are shown on Exhibit B.*
---------------------------------------------------------------------------
    * Exhibits A-C have been retained in subcommittee files.
---------------------------------------------------------------------------
    The proposed title transfer is beneficial to all parties involved. 
Operational efficiencies are realized by both the federal government 
and the District, outstanding financial obligations of the C-BT 
Project's power beneficiaries are satisfied, and the federal government 
is relieved of any liability associated with these facilities following 
the completion of the title transfer. The District gains efficiency in 
its water operations and administration of these facilities by 
eliminating unnecessary federal oversight and administrative 
redundancy.

                             II. BACKGROUND

    The C-BT Project is a multi-purpose project. Its primary purpose is 
to provide a supplemental water supply. Its secondary purpose is power 
generation. The C-BT Project was built by the United States Bureau of 
Reclamation (Reclamation) with the District acting as the project 
sponsor and as the local repayment entity for the Project. The District 
and Reclamation entered into a Repayment Contract on July 5, 1938. The 
Repayment Contract defines the contractual obligations of both the 
District and Reclamation associated with the repayment obligation, 
operation, maintenance, and administration of the C-BT Project, and 
grants to the District the perpetual right to the water yielded from 
the C-BT Project. Construction on the C-BT Project began in 1938 and 
was completed in 1957 when the Project was placed into full operation.
    As stated earlier, the C-BT Project provides a supplemental water 
supply for beneficial use within the boundaries of the District, an 
area that includes approximately 1.6 million acres as depicted on the 
map attached as Exhibit C. The area served by the C-BT Project includes 
approximately 693,000 acres of irrigated farmland. A portion of this 
farmland receives water directly from the C-BT Project through 
deliveries from the Project to approximately 120 ditch and reservoir 
companies which distribute Project water for irrigation purposes. 
Further, the C-BT Project provides water supplies to 32 towns and 
cities and many domestic water purveyors that, when combined, serves 
water to more than 750,000 people.
    The C-BT Project diverts water from the headwaters of the Colorado 
River into the collection facilities of the C-BT Project. These 
facilities include Grand Lake, Shadow Mountain Reservoir, Lake Granby, 
and Willow Creek Reservoir. Utilizing these storage reservoirs, as well 
as the Willow Creek Pumping Plant and the Fan Pumping Plant, water 
captured by the collection system is eventually diverted to the eastern 
slope of the Continental Divide through the 13.1-mile long Alva B. 
Adams tunnel. This tunnel runs under the Continental Divide and beneath 
Rocky Mountain National Park, delivering water into the Big Thompson 
River watershed. Once on the eastern slope, C-BT Project water flows 
through five hydroelectric generating plants as the water drops more 
than 2,600 vertical feet to two eastern slope terminal storage 
reservoirs, Horsetooth Reservoir and Carter Lake Reservoir.
    From these terminal storage reservoirs, the Project's water supply 
is delivered to water users within District boundaries through the 
Project's distribution facilities. These distribution facilities 
consist of single-purpose water conveyance facilities located 
downstream of the C-BT Project's two East Slope terminal storage 
reservoirs.
    Since the C-BT Project was placed into full operation in 1957, the 
District has been solely responsible for: the operation, maintenance, 
and administration of the single-purpose water conveyance facilities; 
the administration and protection of the lands and easements associated 
with these facilities, including issuance of licenses and crossing 
permits for entities seeking to utilize portions of the canal lands and 
easements for various purposes; and the payment of the full costs of 
operation, maintenance, and administration of these facilities. These 
activities have been carried out under the oversight, but without the 
extensive involvement, of Reclamation.
    In 2000, the title to the four single-purpose water conveyance 
facilities located downstream of Horsetooth Reservoir was transferred 
from the United States to the District under the authority of Public 
Law 106-376. Facilities transferred by Public law 106-376 included:

          1. Charles Hansen Supply Canal;
          2. Windsor Extension Canal;
          3. North Poudre Supply Canal (also known as the Monroe 
        Gravity Canal); and
          4. Dixon Feeder Canal.

                       III. PROPOSED LEGISLATION

    S. 1498 would authorize the transfer of title of the C-BT Project's 
single-purpose water conveyance facilities located downstream of Carter 
Lake Reservoir in the southern portion of the C-BT Project. The passage 
of S. 1498, when combined with Public Law 106-376, would complete the 
transfer of title of all single-purpose water conveyance facilities 
within the C-BT Project from the United States to the District. The 
current legislation is very similar to that contained in Public Law 
106-376.
    The function and operation of the proposed transferred facilities 
will not be altered or modified as a result of the passage of this 
legislation. The transferred facilities will continue to be operated to 
meet the needs of the water users within the District boundaries for 
the supplemental water supplies provided by the C-BT Project.
    The South Platte Supply Canal originally became a facility of the 
C-BT Project during Project construction when an agreement was reached 
with the Consolidated Lower Boulder Reservoir and Ditch and the Coal 
Ridge Ditch companies (the Companies). Under the agreement, the United 
States acquired the existing ditch easements, purchased additional 
easements, and enlarged the Companies' existing canal to accommodate: 
a) the diversion and conveyance of C-BT Project water from Boulder 
Creek at a point downstream of the City of Boulder for delivery to the 
South Platte River at a point near the Town of Fort Lupton; and b) the 
continuing diversion, conveyance, and delivery of water yielded from 
water rights owned by Companies. Of note is that the senior water right 
associated with the original canal is the oldest, most senior 
adjudicated water right in the South Platte Basin within Colorado, 
dating back to 1859. The operation of the Companies' canal and the 
exercise of the associated water rights were not affected because of 
the enlargement of the original canal as part of the C-BT Project's 
construction. This remains true today as the Companies continue to 
divert and beneficially use their own water rights through this canal 
as they would have had the canal never been enlarged to accommodate C-
BT Project water.
    Further, in July 1954, the District entered into operating 
agreements with the Companies for the operation and maintenance of the 
South Platte Supply Canal. As part of that operating agreement, the 
District is responsible for paying between two-thirds and three-fourths 
of the operating costs associated with various segments of the South 
Platte Supply Canal.
    The proposed legislation will improve the efficiency and operation 
of these facilities by eliminating the redundant and unnecessary 
oversight role now being performed by Reclamation. Operation, 
maintenance, and administration of these facilities and their 
associated easements have historically been carried out by the District 
without significant oversight or involvement by Reclamation. The level 
of maintenance performed on these facilities by the District, and by 
the Companies on the South Platte Supply Canal, has never been found to 
be in any way deficient during the periodic inspections performed by 
Reclamation. Elimination of the federal redundancy in the 
administration of these facilities will save the District and its water 
users unnecessary costs.
    All financial obligations of the District associated with these 
facilities were met under the terms of the Repayment Contract with 
final payment made by the District to Reclamation in December 2001. The 
``aid-to-irrigation'' financial component associated with these 
facilities is an obligation of the C-BT Project power beneficiaries. 
The repayment of that financial obligation is addressed in the proposed 
legislation and will be paid by the Project's power beneficiaries. 
Lastly, all federal liability associated with the operations of these 
facilities will be eliminated as a result of the transfer of title.
    This legislation is actively supported by local water interests. 
Letters supporting the introduction of this legislation are included as 
Exhibit D. These include letters from the City of Boulder, the Town of 
Erie, the Lefthand Water District, the City of Longmont, the New Coal 
Ridge Ditch Company, and the New Consolidated Lower Boulder Reservoir 
and Ditch Company.

                             IV. CONCLUSION

    Transfer of title of these three single-purpose C-BT Project water 
conveyance facilities from the United States to the District: a) will 
improve the efficiency of government, both on the federal and local 
levels, by eliminating redundancy in the operation, maintenance, and 
administration of these facilities; b) will eliminate all federal 
liability associated with the transferred facilities; c) will not 
change the operation of the facilities; and d) will complete the 
transfer of all single-purpose water conveyance facilities within the 
C-BT Project. We urge this legislation be moved forward to accomplish 
this transfer of title as soon as practical.

    Senator Murkowski. Thank you, Mr. Witwer.
    Mayor Nelson, welcome.

            STATEMENT OF LAWRENCE K. NELSON, MAYOR, 
                        CITY OF YUMA, AZ

    Mr. Nelson. Madam Chairman, committee members, it is an 
honor and privilege to be here representing the wonderful city 
of Yuma, Arizona. My name is Lawrence K. Nelson, the mayor of 
the city of Yuma, Arizona. I appreciate this opportunity to 
testify in support of S. 1529, the city of Yuma Improvement Act 
of 2005, and would like to thank Senators Jon Kyl and John 
McCain for their leadership on this issue.
    Like many American cities in the 20th century, Yuma had 
neglected its river heritage. For the past decade, however, the 
Yuma community has worked to reconnect with the original 
crossings of the Colorado River in three important ways.
    First, with the support of the Federal and State 
governments, we have undertaken an ambitious wetlands 
restoration and conservation project, called the Yuma East 
Wetlands.
    Second, we are developing riverfront parks, which give the 
public better river access and recreational opportunities.
    And third, the city has worked to redevelop 22 acres along 
Yuma's downtown riverfront with significant private sector 
commitments for investment.
    The city recognized that this commercial redevelopment 
project was primarily a local responsibility. The challenge was 
that the State and Federal Governments owned small portions of 
the 22-acre site. Over the past 6 years, we have assisted in 
the relocation of the National Guard facility and the Border 
Patrol Sector headquarters. The city has spent considerable 
local sums to assemble these properties.
    At the same time, the city has been working with a private 
sector development partner to implement an $80 million 
redevelopment project, which includes a riverfront hotel and 
conference center, visitor's center, office buildings, 60-80 
residential condominiums, and retail shops. In November 2004, 
Yuma City Council approved a development agreement, which 
requires construction to begin by July 2006.
    As planning for this project got underway in 2000, it 
became apparent that along the riverfront there was a patchwork 
quilt of ownership dating from the inception of the Yuma 
project in 1905 undertaken by the U.S. Reclamation Service. For 
the past 5 years, city and Reclamation staff have worked 
together to try to make sense of the property situation. As 
early as 2003, both staffs agreed in principle that there could 
be a fair exchange. The Bureau of Reclamation would receive 
title to city-owned land over which their railroad tracks run 
to the desalinization plant. The city would receive title to 
``orphan'' parcels which served no purpose to the Bureau of 
Reclamation. In addition, the city agreed, at its own cost, to 
relocate functions of the Yuma County Water Users' Association, 
which would then free up land for important public uses like a 
visitor's center and an ancillary water treatment facility.
    For the past 2 years, the city has proceeded with all 
required environmental compliance and has paid for the 
relocation of the Yuma County Water Users Association 
functions. All that remains is for Congress to provide 
authorization for this exchange.
    Passage of this legislation will facilitate phase 1 of the 
riverfront development, including the hotel and conference 
center construction. For future phases, we continue to work 
with other Federal partners, such as the U.S. Fish and Wildlife 
Service, to assist in relocating their Kofa National Wildlife 
Refuge headquarters.
    Our downtown riverfront is the heart of our community. It 
is the site of the historic crossing of the Colorado River by 
60,000 people during the 1849 Gold Rush. The Yuma Crossing was 
established as a National Historic Landmark in 1967. We look 
forward, however, to the day when the Yuma Crossing will once 
again be a bustling commercial riverfront.
    With the assistance of Congress, Yuma will be able to 
regain control and ownership of this land and return it to 
productive use.
    Thank you again for the opportunity to speak in support of 
S. 1529.
    Senator Murkowski. Senator Kyl.
    Senator Kyl. Thank you. With the permission of the last 
witness, I just want to interject one thing about this, because 
I'll have to go. Mayor Nelson and the city council of Yuma have 
been working on this now for several years. I've seen the 
project as it has unfolded and it is a good project. The only 
thing that impedes this particular part of it is that the 
Bureau of Reclamation and the city of Yuma have interlocking 
land right along the river. Very low value. And there's orphan 
parcels. But the Bureau of Reclamation has the railroad right-
of-way, and the city would like to have those orphan parcels 
that the Bureau owns right now, and the easiest, simplest, and 
least expensive way to do this is with legislative action.
    OMB has given the usual ``We could also do it 
administratively'' testimony, and there's nothing wrong with 
that, except that it makes it more expensive, it takes a lot 
longer, and I'm not sure that the Bureau then would get the 
right-of-way for the railroad that it would like. So what Mayor 
Nelson proposes is exactly the right way to solve this. Senator 
McCain and I certainly agree with that, and we hope the 
committee will be able to adopt this legislation expeditiously.
    Mayor Nelson, thank you very much for all the hard work 
that you and the folks in Yuma have done on this. And thank 
you, Madam Chairman and Senator Salazar, for my brief 
intercession here.
    Mr. Nelson. Thank you very much, Senator.
    Senator Murkowski. Senator Kyl, I appreciate your comments 
and your support of this, and for the Bureau.
    With that, let's go to our final witness on this panel, Mr. 
Blickensderfer.

  STATEMENT OF TOM BLICKENSDERFER, ENDANGERED SPECIES PROGRAM 
 DIRECTOR, COLORADO DEPARTMENT OF NATURAL RESOURCES, DENVER, CO

    Mr. Blickensderfer. Thank you, Madam Chair and committee 
members. I am Tom Blickensderfer, I'm the endangered species 
program director for the Colorado Department of Natural 
Resources. I'd like to thank Senator Wayne Allard for his 
introduction of S. 1578. Senator Allard introduced the 
legislation which enacted Public Law 106-392, which authorized 
the capital construction projects for the two programs: the 
Upper Colorado and San Juan Fish Recovery Programs. I'd also 
like to thank Senator Ken Salazar for his co-sponsorship and 
for his support of these programs, which dates back to his 
service as executive director of the Colorado Department of 
Natural Resources in the 1990's, when he sat on the 
Implementation Committee for the Upper Colorado Program. We 
appreciate also the co-sponsorship of Senators Bennett and 
Hatch.
    Wyoming, Utah and New Mexico joined Colorado in support of 
the passage of S. 1578. We are committed to recovering these 
four endangered fish--the humpback chub, the Colorado 
pikeminnow, the bonytail and the razorback sucker. These 
programs attempted to accomplish our dual objectives of 
recovery of the fish while we accommodate additional water 
storage and development. Actions toward recovery are driven by 
the recovery goals developed and approved by U.S. Fish and 
Wildlife Service in 2002, which provide the biological 
mileposts and timeframes against which we measure our success.
    The work done includes restoring floodplain and wetland 
habitat, providing flows in accordance with the State water law 
for the fish, throughout our various reaches of stream in the 
programs; construction of fish passageways to greatly expand 
fish habitat; installing fish screens to prevent endangered 
fish from being trapped in diversion canals; managing 
detrimental non-native species; propagation and stocking of the 
endangered fish; and finally, research, monitoring and data 
management to teach us what the endangered fish need to 
survive, grow and reproduce in the wild.
    The ability of these two programs to accomplish these 
simultaneous goals of fish recovery and water development is 
nothing short of extraordinary. These programs serve as the 
means for Endangered Species Act compliance for 800 water 
projects diverting over 2.5 million acre-feet of water per 
year, serving millions of citizens in all four States. The 
programs provide ESA compliance for large and small tribal 
water projects in the two basins, and allows the United States 
to fulfill its trust responsibilities in compliance with the 
Endangered Species Act.
    In all of this, not one lawsuit has been filed under the 
ESA on any one of these 800 projects during the entire 
existence of both programs.
    While program partners have been judicious and careful in 
the expenditure of dollars in these programs, we face 
circumstances beyond our control which bring us before you 
today to advocate for S. 1578. Construction costs are on the 
rise in a dramatic fashion, driven much by the increase in 
energy costs and the worldwide increase in the demand for 
steel. Our construction schedules on different projects have 
been delayed due to access and property acquisition issues. 
Finally, we have had to redesign fish screens to accommodate 
site-specific conditions in the Colorado River, including 
changing design criteria to accomplish debris removal from 
these fish screens.
    The estimated additional costs above the present 
authorization to complete the programs' construction projects 
total $12.5 million. We are requesting an additional $2.5 
million for contingencies, to be appropriated only if needed, 
resulting in our request for a $15 million increase in our 
appropriation authorization.
    In addition, we are asking the subcommittee to acknowledge 
$11 million in additional non-Federal cost share. This 
additional cost share is attributed to loss of Colorado River 
Storage Project power revenues from project reoperation to 
benefit endangered fish at a level of $7.1 million and also 
attributed to capital costs for water users who provide water 
for the endangered fish from Elkhead Reservoir in Colorado at a 
level of $3.9 million.
    Finally, the programs ask that we seek a time extension for 
capital project completion from 2008 to September 30, 2010, 
which will allow for full implementation of all construction 
projects while avoiding any real increase in Reclamation's 
annual appropriations requests for the programs.
    This increase in authorized expenditures is needed this 
year so Reclamation can factor it into its 3-year advanced 
budget planning, thus ensuring that the capital construction 
program can be completed by 2010.
    Again, we offer our thanks to Senators Allard, Salazar, 
Bennett and Hatch for sponsoring this legislation.
    I would request my testimony be included in the record, and 
I would be happy to answer any questions of the subcommittee.
    [The prepared statement of Mr. Blickensderfer follows:]

 Prepared Statement of Tom Blickensderfer, Endangered Species Program 
     Director, Colorado Department of Natural Resources, on S. 1578

    Thank you, Madam Chair and Committee members, for this opportunity 
to appear before you today and to speak about two Programs which have 
become known as national models for endangered species recovery 
efforts. I'd like to thank Senator Wayne Allard for his introduction of 
S. 1578, and his ongoing support for the Upper Colorado and San Juan 
Programs. Senator Allard introduced the legislation which enacted 
Public Law 106-392, which authorized the capital construction projects 
for these Programs. Thank you, also, to Senator Ken Salazar for his co-
sponsorship and for his support of these Programs, which dates back to 
his service as Executive Director of the Colorado Department of Natural 
Resources in the 1990's when he had a seat on the Implementation 
Committee for the Upper Colorado Program. We appreciate also the co-
sponsorship of Senators Bennett and Hatch.
    The State of Colorado joins with the States of Wyoming and Utah as 
partners in the Upper Colorado River Fish Endangered Fish Recovery 
Program and with the State of New Mexico as partner in the San Juan 
River Basin Recovery Implementation Program in requesting passage of S. 
1578. We are deliberate and comprehensive in our commitment as states 
to recovering these four endangered fish--the humpback chub, the 
Colorado pikeminnow, the bonytail and the razorback sucker. These 
Programs combine the unique expertise of water engineers, biologists, 
and policy administrators to accomplish our dual objectives of recovery 
of the fish while we accommodate additional water storage and 
development. Actions towards recovery are driven by the recovery goals 
developed and approved by U.S. Fish and Wildlife Service in 2002, which 
provide the biological mileposts and timeframes against which we 
measure our success. The work done to proceed towards recovery of these 
species to date has been extensive. It includes restoring floodplain 
and wetland habitat, providing flows in accordance with the state water 
law in cooperation with water users, constructing fish passageways to 
greatly expand access to the rivers for the fish, installing fish 
screens to prevent endangered fish from being trapped in diversion 
canals, managing detrimental non-native species, propagation and 
stocking of the endangered fish and conducting the necessary research, 
monitoring and data management to provide critically important 
information about what the endangered fish need to survive, grow and 
reproduce in the wild and to monitor progress towards reestablishment 
of self-sustaining populations needed to delist these species from the 
ESA endangered species list.
    From Colorado's perspective, both the Upper Colorado River and the 
San Juan River Recovery Programs provide the means for our citizens to 
carry on with necessary water use and development activities while at 
the same time accomplishing species conservation and ultimately 
recovery of the four endangered fishes. This ability of these two 
Programs to accomplish these simultaneous goals is nothing short of 
extraordinary. The Programs serve as the means for Endangered Species 
Act compliance for 800 water projects diverting over 2.5 million acre-
feet per year of water, serving millions of citizens in all four 
states. The programs provide ESA compliance for large and small tribal 
water projects in the two basins, and allow the United States to 
fulfill its trust responsibilities in compliance with the Endangered 
Species Act. In all of this, not one lawsuit under the ESA has occurred 
on any one of these 800 projects during the entire existence of both 
Programs. Since their inception, the Programs have annually achieved 
sufficient progress toward the recovery of the four fish necessary to 
ensure ESA compliance for water depletions, as independently determined 
by the United States Fish and Wildlife Service.
    All four states have undertaken their cost-share obligations 
seriously, and have received strong support from their various 
Legislatures to fund their respective portions of this enormous 
undertaking in species recovery. The Colorado General Assembly passed 
legislation in 1998 and in 2000 to establish and fund the Native 
Species Conservation Trust Fund, from which Colorado will draw its full 
cost-share for both programs of $9.146 million. The Utah Legislature 
created a restricted Species Protection Account in 1997, and the 
Wyoming Legislature appropriated its funding share during their 1998 
and 1999 legislative sessions. The New Mexico Legislature has chosen to 
appropriate funds into the State's ``operating reserve,'' thus making 
them available at any time and not tied to a specific calendar year.
    Colorado has chosen to fulfill the bulk of its cost-share 
obligation for the Upper Colorado River Program by committing funding 
to the enlargement of Elkhead Reservoir in Northwest Colorado, which 
will ultimately provide 5000 acre-feet per year of additional water in 
Colorado's Yampa River to enhance habitat for the fish in months when 
water flows are the lowest, and allow the Program to lease an 
additional 2000 acre-feet per year.
    While Program partners have been judicious and careful in the 
expenditure of dollars in these Programs, we face circumstances beyond 
our control which bring us before you today to advocate for S. 1578. 
Construction costs are on the rise in a dramatic fashion, driven much 
by the increase in energy costs and the worldwide increase in the 
demand and resulting cost of steel. Our construction schedules on 
different projects have been delayed due to access and property 
acquisition issues. Finally, we have had to redesign fish screens to 
accommodate site-specific conditions in the Colorado River, including 
changing design criteria to accomplish debris removal from these fish 
screens. The estimated additional costs above the present authorization 
to complete the Programs' construction projects total $12.5 million; we 
are requesting an additional $2.5 million for contingencies to be 
appropriated only if needed, resulting in our request for a $15 million 
increase in our appropriation authorization. In addition, we are asking 
this Subcommittee to acknowledge $11 million in additional non-federal 
cost share. This additional cost share is attributed to loss of 
Colorado River Storage Project power revenues from project reoperation 
to benefit endangered fish ($7.1 million) and also attributed to 
capital costs for water users who provide water for the endangered fish 
from Elkhead Reservoir ($3.9 million) in Colorado. (A detailed 
explanation of the additional cost share is attached to my testimony.) 
Congress recognized these types of cost sharing in Public Law 106-392. 
The bill would increase the total authorization for the Programs to 
$126 million; with $65 million attributed to the non-federal cost-share 
and $61 million to the federal share.
    The Programs also seek a time extension for capital project 
completion from 2008 to September 30, 2010, which will allow for full 
implementation of all construction projects while avoiding any real 
increase in Reclamation's annual appropriations requests for the 
Programs.
    This increase in authorized expenditures is needed this year so 
Reclamation can factor it into its three year advanced budget planning, 
thus ensuring that the capital construction program can be completed by 
2010.
    Colorado joins with its sister states in requesting your passage of 
S. 1578. This will allow the Programs to fully implement the recovery 
goals so as to accomplish delisting and hence recovery of these 
endangered fish species.
    Again, we offer our thanks to Senators Allard, Salazar, Bennett and 
Hatch for sponsoring this legislation.
    I would be happy to answer any questions of the Subcommittee.

             ATTACHMENT TO TOM BLICKENSDERFER'S TESTIMONY: 
            ADDITIONAL $11.0 MILLION NON-FEDERAL COST SHARE

    POWER REVENUE NON-FEDERAL COST SHARE: During the development and 
passage of P.L. 106-392, it was anticipated that the value of ``lost'' 
CRSP power revenues due to changed operations at Flaming Gorge Dam to 
meet endangered fish needs was approximately $15 million. Congress 
recognized this as a non-federal cost share in P.L. 106-392. However, 
this expectation has been far exceeded. The estimated cost of this lost 
revenue to the Western Area Power Administration is $22.1 million, $7.1 
million more than was originally estimated. Congress is asked to 
recognize the additional $7.1 million in lost power revenues as non-
federal cost share, as in the original authorizing legislation (P.L. 
106-392).
    WATER USERS NON-FEDERAL COST SHARE: The enlargement of the Elkhead 
Project will provide an additional 5,000 acre-feet of water for use on 
a permanent basis by the Recovery Program to provide flows for 
endangered species. In addition, the Program will lease up to 2,000 
acre-feet/year from the Colorado River Water Conservation District at a 
rate of $50/acre-foot, paying only for the water actually leased in a 
given year. On average, the lease is expected to be 500 acre-feet/year 
at a cost of $25,000. The amortized cost of providing 2,000 acre-feet 
of storage in Elkhead Reservoir is $110/acre-foot/year, or $220,000/
year, resulting in a non-federal cost share to the Program of $195,000/
year for 20 years, for a total of $3.9 million. This is in addition to 
the $5.0 million that was recognized in P.L. 106-392 as a water user 
cost share as a result of releases from Wolford Mountain Reservoir.

    Senator Murkowski. Thank you. Your testimony will be 
included, as will the testimony from all those who have 
appeared before us this afternoon.
    Mr. Blain, I believe that I heard you indicate that the 
total cost of the project would be $137 million and that the 
estimated time to complete it is 10 years.
    Mr. Blain. Ten years, yes.
    Senator Murkowski. Mr. Witwer, can you tell me why the 
district chose to come to the Congress for another title 
transfer, as opposed to utilizing the Bureau's administrative 
process for this?
    Mr. Witwer. Yes, thank you. Thank you, Senator. The process 
that was really precedent-setting in this regard was Public Law 
106-376, which took four single-purpose project facilities and 
transferred title from the United States to the Northern 
District in a very efficient and cost-effective manner. This 
project, like that--this set of facilities is virtually 
identical to that, it's just on the other end of the--sort of 
the downstream end of the terminal storage, from Carter Lake--
or rather Horsetooth Reservoir. And we believe that that 
legislation coins an effective model for how to transfer the 
title successfully.
    Senator Murkowski. We can do it, cost effective and 
efficient. I like to hear that. I understand that there might 
be a possible title issue of the South Platte Supply Canal; can 
you address that?
    Mr. Witwer. Sure, I'd be happy to. As I stated earlier, 
there were two existing ditch companies using a canal at the 
time of our project construction, and rather than build a 
stand-alone facility, the Bureau negotiated with those two 
companies for basically a right to enlarge and carry project 
water through those facilities, while continuing to preserve 
the right of those owners to convey their water. This 
legislation would convey the districts--excuse me, the Bureau's 
interest only in those facilities and both of those companies 
would retain all rights that they have in the past and their 
operations would be unaffected. And I note that in the letters 
of support which are attached as exhibit D to my testimony, 
both of those companies involved have submitted letters of 
support.
    Senator Murkowski. Mayor Nelson, can you give me the 
estimated cost for this land swap? I believe I heard you say 
that the city would be responsible for the cost; is that 
correct?
    Mr. Nelson. Yes, that's correct.
    Senator Murkowski. And what is the estimated cost?
    Mr. Nelson. The city's already paid $300,000 to swap the 
land with the Yuma County Water Users. And I don't know if 
we've got a total dollar figure. It is probably a half a 
million dollars total.
    Senator Murkowski. Okay, thank you. Now, the administration 
has testified that this conveyance will clear title on the rail 
line. Can you address that?
    Mr. Nelson. Yes, I will. That rail line--and there's a lot 
of history in that waterfront area--used to be the first 
crossing across the Colorado River that there was to get from 
East to West, when the railroad bridge went in. And then, later 
on, the railroad went on down to Mexico. Unfortunately, it now 
goes down to the desalinization plant. And the property in the 
early years was owned by the city, and indeed in numerous 
transactions, it ended up partially in the city's hands, 
partially in the Bureau's hands, with a lot of the orphan 
parcels in there as well. But it dates all the way back from 
the 1900's.
    Senator Murkowski. Now, it's been stated here by Mr. Rinne 
that this process could be handled administratively. Senator 
Kyl had mentioned that as well, and that he thinks that the 
route that you are taking, the legislative route, is the 
preferable one for the city of Yuma. I'm assuming that is 
correct, because you're here.
    Mr. Nelson. That is absolutely correct. Because we have 
found that the JSA route is not only more time consuming, but 
also more costly to both parties.
    Senator Murkowski. And Mr. Blickensderfer, in S. 1578, 
there's an increased appropriations ceiling for the Upper 
Colorado Basin Recovery Program, but not for the San Juan River 
Recovery Program. Can you explain why additional appropriations 
are not necessary for the San Juan River Recovery Program?
    Mr. Blickensderfer. Madam Chairman, we have in the San Juan 
Program problems that are similar to our problem in the Upper 
Colorado Program, which are merely construction delays in 
coordination with the various tribal governments that are 
affected by the San Juan Program. So I'm not sure that I could 
at this point give you a delineation of the dollars between the 
two programs. But we do have, at least as far as delays go, 
similar expense, run-ups there, and that is what's driving the 
costs in the San Juan.
    Senator Murkowski. So you're suggesting that there may be a 
need for additional funds for the San Juan Recovery then?
    Mr. Blickensderfer. Yes, Madam Chair, I am. But once again, 
we haven't--because we were bringing these both together in one 
package--we haven't really split them out between the two 
programs, we're taking them as a whole in this legislation.
    Senator Murkowski. Thank you.
    Senator Salazar.
    Senator Salazar. Thank you, Madam Chair. First, with 
respect to S. 1578, the recovery programs on the Colorado River 
and the San Juan River, I remember when those programs were 
started and I sat on the negotiating teams and the 
implementation committees and, Mr. Blickensderfer, I would just 
say that I think they're good role models for how you can 
effectively implement the Endangered Species Act requirements, 
while at the same time not keeping it in the way of water 
development or affecting water users and water rights within 
Colorado. So I applaud you and your leadership and that of the 
Department of Natural Resources, as well as all the 
organizations that are part of it. And I will note that it is a 
program that has huge and broad support--unlike lots of other 
things that we deal with here in this Congress--when you think 
that the letters of support that I believe have all been 
included in the record, including letters of support from 
Governor Dave Freudenthal of Wyoming, Governor Bill Richardson 
of New Mexico, random organizations like The Nature 
Conservancy, the Western Resource Advocates, and a whole host 
of other organizations. So I just applaud you for your work and 
ask you to continue to update us on the progress of the 
recovery efforts under both programs.
    A question, Mr. Witwer, concerning S. 1498. And let me just 
say at the outset that your organization, the leadership of 
Eric Wilkinson and your board, I think are a well model for how 
we manage and distribute water supply in the West and so I 
often ask other water conservancy organizations, Madam 
Chairperson, to go to the Northern Water Conservancy District 
to learn how to do it right.
    So I congratulate you for what you guys do. I have a 
question that was asked earlier about the processes for the 
conveyance. Looking back at the way that Public Law 106-376 was 
implemented, was it in fact the most effective and efficient 
way to achieve the desired transfer?
    Mr. Witwer. Well, thank you, Senator Salazar, for your 
original co-sponsorship and support of this legislation and for 
your kind words, which I will convey to Mr. Wilkinson upon my 
return. Yes, we do think that the Public Law 106-376 was the 
effective model for how to transfer single purpose conveyance 
facilities connected with this project. That was done 
effectively, and as you know, with the removal of many costs 
and other liability for the Federal Government and also 
significant cost reduction for the district and its water 
users.
    Senator Salazar. Thank you very much.
    Mr. Witwer. Thank you.
    Senator Murkowski. Thank you, Senator Salazar. I have no 
further questions. As you heard from Senator Johnson, he did 
have some questions that we will be submitting to you for your 
written response. I appreciate the time that you've taken to 
join us, the effort that you have made to travel the distances 
that you have, and for your testimony and for all that you're 
doing within your respective communities. Thank you. And with 
that, we stand adjourned.
    [Whereupon at 4:10 p.m. the hearing was adjourned]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

 State of Colorado Department of Natural Resources,
                          Office of the Executive Director,
                                      Denver, CO, October 19, 2005.
Hon. Lisa Murkowski,
Chairman, Subcommittee on Water and Power, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.

Re: Responses to Questions for the Record posed by Senators Domenici 
and Johnson regarding S. 1578, a Bill to Reauthorize the Upper Colorado 
and San Juan River Basin endangered fish recovery programs.

    Dear Senator Murkowski: Attached please find my responses to the 
questions posed by Senators Domenici and Johnson regarding S. 1578. I 
hope the Subcommittee members find my answers to be substantive and 
complete. If there are additional questions, I would be happy to answer 
them.
    Thank you, once again, for the consideration and kindness you and 
your fellow Subcommittee members extended to me during my testimony on 
Thursday, October 6th
            Sincerely,
                                        Tom Blickensderfer,
                               Endangered Species Program Director.
[Enclosure.]

               Response to Question From Senator Domenici

    Question 1. Senate Bill S. 1578, titled ``A Bill to reauthorize the 
Upper Colorado and San Juan River Basin endangered fish recovery 
implementation programs'', seeks authority to expend an additional $15 
million of Federal appropriated funds for the Upper Colorado Program 
and extend the deadline for completing construction of capital projects 
from 2008 to 2010 for both Programs. Why does the Bill not seek 
additional funds for the San Juan Program while asking for an extension 
of time to complete capital construction projects?
    Answer. P.L. 106-392, as amended, authorized the expenditure of $18 
million for the San Juan Program with a 2008 deadline for completion of 
capital projects. The federal share of this authorization is indexed 
based on the Consumer Price Index. With indexing the current 
authorization is $19 million. By 2010, based on a CPI increase of three 
percent per year, the available authorization will be approximately $20 
million.
    Through fiscal year 2005 the San Juan Program has expended 
approximately $7,032,000 for capital projects identified as necessary 
to recover the razorback sucker and Colorado pikeminnow. These funds 
have provided for the construction of facilities to restore fish 
passage at the Hogback, Cuedi and Public Service Company of New Mexico 
diversion dams in New Mexico, and construction of propagation 
facilities in New Mexico required to support fish stocking efforts.
    The San Juan Program has recently identified the need to construct 
a fish screen at the Hogback diversion dam to prevent the entrainment 
of native fish and reduce fish mortality. The estimated cost of this 
facility is approximately $1.4 million. It is scheduled for completion 
in 2008.
    The Program is currently evaluating the need for fish passage at 
the Arizona Public Service Company diversion dam and the Fruitland 
Project diversion dam near Farmington. The estimated cost of the 
passage at Arizona Public Service Company passage is estimated at $2.2 
million, if needed. The estimated cost of the Fruitland passage is $2.3 
million, if needed.
    The Program is also evaluating the need for backwater habitat 
restoration on the San Juan River. Four million dollars has been 
reserved within the authorized ceiling for this purpose. It is very 
likely that the amount needed will be much less.
    Improvements to the current hatchery facilities are estimated at 
approximately $200,000. No other major hatchery facilities are 
anticipated in order to meet recovery goals.
    The total additional capital expenditures described above are 
estimated at a maximum of $10.1 million. If all of these expenditures 
are made, which appears very unlikely, the total cost of capital 
projects would be $17.132 million, against a currently authorized 
ceiling of $19 million. With indexing the ceiling is expected to grow 
to $20 million by 2010.
    Based on current identified needs and a management assessment of 
required funding, it does not appear that capital projects funds above 
the current authorization will be required to achieve the recovery 
goals.
    The additional time to construct capital projects is being 
requested to accommodate ongoing field monitoring and evaluation of the 
need for additional facilities, and to plan, design, and construct 
those facilities. In addition, the additional two years of 
authorization through 2010 will allow appropriation requests to remain 
at about the same levels as previous appropriations to Reclamation to 
the Program, and avoid a significant increase in requests in 2008.

              Responses to Questions From Senator Johnson

    Question 1. Have the Upper Colorado and San Juan Recovery Programs 
been successful in improving the status of the species involved in the 
programs?
    Answer. Yes. Both Programs are successfully undertaking management 
actions to increase the numbers and enhance the survival of the four 
fish species (humpback chub, Colorado pikeminnow, razorback sucker and 
bonytail). These actions include managing nonnative fish, stocking 
endangered fish, restoring floodplain habitats, providing beneficial 
flow conditions, and constructing fish passages and screens at 
diversion dams and canals. These management actions are consistent with 
the August 1, 2002, U.S. Fish and Wildlife Service recovery goals. 
These actions are yielding positive results.
    Management of nonnative species, particularly northern pike and 
smallmouth bass, has successfully reduced the within-year abundance of 
nonnative fishes in some stretches of the Yampa and Green rivers. 
Removal of catfish in the San Juan River has had a substantial impact 
on the presence of large predators. There are encouraging signs that 
these nonnative fish management actions will reduce the long-term 
abundance of problematic nonnative fishes while bringing about positive 
responses in populations of endangered fishes.
    Razorback sucker were near extinction and bonytail were 
functionally extinct in the Upper Basin. Populations of razorback 
sucker and bonytail are being reestablished through stocking of 
hatchery-reared fish. Stocked razorback suckers are surviving and 
reproducing, and stocked bonytails are being recaptured at several 
locations.
    Nursery habitats for young razorback suckers are being provided 
through acquisition and restoration of floodplain wetlands in the Green 
River and Colorado River systems. Both Programs are working 
cooperatively with local, State, Federal, and tribal agencies to 
provide river flows to meet the needs of endangered fish. Fish passages 
constructed at diversion dams restore access to reaches of critical 
habitat. Fish screens constructed at diversion canals prevent 
endangered fish from becoming trapped.
    Question 2. Can you provide some specifics regarding any such 
improvement--for example, population increases?
    Answer. Colorado pikeminnow: Today, there are two self-sustaining 
populations in the Upper Colorado River Basin. Estimates of adult 
abundance in the Colorado River have steadily increased and range from 
450 in 1992 to about 780 in 2003. Estimates of adult abundance in the 
middle and lower Green River declined during the recent record-setting 
severe drought from 3,100 in 2001 to 2,300 in 2003. A positive sign is 
that estimates for young Colorado pikeminnow in 2004 were the highest 
they have been since 1996 in the middle Green River and since 2000 in 
the lower Green River. This suggests that populations are rebounding as 
wetter hydrologic conditions return.
    About 20 wild adults were estimated in the San Juan River in the 
early to mid 1990's. Reestablishment of fish in the San Juan River is 
being accomplished through an aggressive stocking effort. Over 668,000 
juveniles were stocked in 2002-2004, and survival of stocked fish has 
been documented.
    Humpback chub: Today, there are five self-sustaining populations in 
the Upper Colorado River Basin. Estimates of adult fish vary 
considerably by location, and efforts are underway to improve and 
better understand these population estimates. Similar to Colorado 
pikeminnow, some populations showed apparent declines during the recent 
drought. Yampa Canyon supports a small population, consisting of about 
400 adults. Recent estimates of adults in Desolation and Gray Canyons 
vary considerably from year to year, ranging from 1,000 to 2,200 during 
2001-2003. In the Black Rocks-Westwater Canyon complex, estimates of 
adults were steady at about 3,000 fish during 1999-2003. Cataract 
Canyon supports a small population, consisting of about 150 adults.
    Razorback sucker: The number of wild fish had declined to only a 
few hundred adults in the middle Green River by the early to mid 
1990's. Populations are now being reestablished through stocking of 
hatchery-reared fish. Stocked fish are surviving and reproducing. In 
the middle Green River, stocked fish in reproductive condition have 
been captured at spawning sites, and captures of larvae confirm that 
these fish are successfully reproducing. Larvae were collected for the 
first time on record in the Gunnison River in 2002 and 2003, indicating 
reproduction by stocked fish. In the San Juan River, reproduction by 
stocked fish at separate locations has been documented through 
collection of larvae every year since 1998, and juveniles have been 
found in 2002 and 2003.
    Bonytail: The number of wild fish had declined to only a few 
individuals in the Upper Colorado River Basin by the early 1980's. 
Populations are now being reestablished through stocking of hatchery-
reared fish. Stocked fish are being recaptured at several locations 
throughout the Upper Colorado River Basin one or more years after 
stocking.
                                 ______
                                 
                        Department of the Interior,
           Office of Congressional and Legislative Affairs,
                                 Washington, DC, November 15, 2005.
Hon. Lisa Murkowski,
Chairman, Subcommittee on Water and Power, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Madam Chairwoman: Enclosed are responses prepared by the 
Bureau of Reclamation to the questions submitted following the October 
6, 2005, hearing regarding the following bills: S. 1025, S. 1498, S. 
1529, S. 1578, and S. 1760.
    Thank you for the opportunity to provide this material to the 
Committee.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]
         Response to Question From Senator Murkowski on S. 1025
    Question 1. I understand that the Bureau was involved in the water 
recharge demonstration project with the City of Wichita that became the 
basis for this Project proposal. Please describe the Bureau's 
involvement in that demonstration project. Was the demo project a 
success?
    Answer. Reclamation and the City of Wichita signed an agreement in 
1995 to initiate a process to demonstrate seasonal water storage and 
recovery to supplement the Equus Beds Aquifer. Reclamation's 
involvement included cost sharing, reviewing the water quality data, 
partnering in the NEPA process, reviewing all engineering data, and 
issuing the final report. The final report, completed in April 2000, 
concluded it was feasible and suitable for full-scale implementation.

        Responses to Questions From Senator Murkowski on S. 1498

    Question 1. How does the title transfer of the facilities involved 
in S. 1498 differ from those transferred as part of Public Law 106-376?
    Answer. Facilities previously transferred under P.L. 106-376 were 
located near Horsetooth Reservoir and were water supply facilities for 
the northern part of the District. Facilities proposed for transfer 
under S. 1498 are located at Carter Lake Reservoir and are water supply 
facilities for the southern portion of the District.
    The facilities that were successfully transferred pursuant to 
Public Law 106-376 were the North Poudre Supply Canal and Diversion 
Works, the Charles Hansen (Supply) Canal and Windsor Extension, and the 
Dixon Feeder Canal. The facilities proposed to be transferred pursuant 
to S. 1498 are the St. Vrain Supply Canal, the Boulder Creek Supply 
Canal (including the Boulder Feeder Canal) and the South Platte Supply 
Canal. These facilities distribute water from Carter Lake Reservoir to 
the southern portion of the C-BT Project.
    The primary differences include the sequence of events, and overall 
approach, in pursuing the transfer. P.L. 106-376 was the result of 
considerable coordination between Reclamation and the District well in 
advance of the legislative introduction and extending throughout the 
process. Reclamation and the Northern Colorado Water Conservancy 
District had little interaction prior to the introduction of S. 1498.
    Prior to the earlier transfer, Reclamation and the District 
executed an MOU identifying roles and responsibilities for the transfer 
process, along with the reimbursement of associated costs. A draft MOU 
is currently under review by the District.
    Question 2. At the hearing you stated that no ``aid to irrigation'' 
is due for a repayment obligation. Is that correct or were you just 
referring to the fact that the Northern Colorado Water Conservancy 
District does not owe any ``aid to irrigation obligation''? Isn't there 
still a federal ``aid to irrigation'' obligation on this transfer?
    Answer. To clarify, the District has fulfilled its repayment 
obligation, as specified by contract, for irrigation costs allocated to 
the project. The remaining portion of the cost to construct the 
irrigation features are being paid by the power customers as ``aid to 
irrigation.'' As part of the title transfer process, a valuation of the 
facilities to be transferred will include an analysis, to be conducted 
in cooperation with the Western Area Power Administration, of the 
payments necessary to fulfill the aid-to-irrigation obligation to the 
United States associated with the facilities proposed for transfer. 
Section 2(a)(2) appears to envision the need for this valuation to be 
completed, but because of the premature nature of this bill, that 
process was not initiated prior to the legislation being introduced.
    It has always been the Administration's position that the entity 
requesting title transfer should either arrange payment of the power 
assistance costs with the power customers before the legislation is 
passed or should pay those costs themselves.

        Responses to Questions From Senator Murkowski on S. 1529

    Question 1. Who has title to the railroad parcels included in this 
bill and depicted on the map titled ``City of Yuma Proposed Property 
Ownership'' and dated July 25, 2005?
    Answer. Reclamation (United States of America) purchased the Yuma 
Trackage from Southern Pacific Transportation Company (SPTC) in 1989 
for the purpose of providing transportation of chemicals required for 
operation of the Yuma Desalting Plant. Prior to that purchase (1974), 
SPTC had sold parcels to the City of Yuma without exempting the track 
from those sales. Therefore, Reclamation and the City of Yuma both hold 
an interest in portions of the track as shown on the above-referenced 
map.
    Question 2. How long would it take to complete the land exchange in 
S. 1529?
    Answer. The passage of S. 1529 would expedite the transfer of 
titles to both the City of Yuma and Reclamation. Allowing for the 
drafting of the appropriate title documents and review and acceptance 
by government legal staff, the process could be consummated in six 
months to one year.
    Question 3. How long would it take to complete the GSA 
administrative process referenced in your testimony to transfer the 
federal parcels to the city?
    Answer. GSA has already contacted and offered assistance to the 
Department of Interior regarding the conveyance of Bureau of 
Reclamation property in Yuma. GSA has broad discretion in the 
development of a disposal plan and has linked its budget to performance 
for measuring disposal cycle time. It is possible that the 
administrative process could be faster at this time without the 
legislation. Public benefit conveyances are generally concluded within 
12 months time.
    Question 4. What does that process entail?
    Answer. GSA's process under the Federal Property Act ensures that 
the Federal government recycles its real property assets with other 
executive agencies to minimize the cost outlay for new land 
acquisitions. After this federal screening to determine whether another 
Federal agency needs the property in question, GSA conducts a public 
body screening whereby the property is made available to public bodies 
for public use. Real property can be conveyed for public education, 
public health, law enforcement, fire and rescue, homeless, park and 
recreational use among others uses. These types of conveyances require 
an application showing the intended program of use and are available 
with discounts in value up to 100%.
    Question 5. What role would the Bureau of Reclamation have in a GSA 
administrative land transfer?
    Answer. Once Reclamation makes a determination that the lands are 
excess to its project needs and turns the lands over to GSA, we have no 
more direct involvement with the transfer.
    Question 6. Does S. 1529 accomplish the same purpose as the GSA 
process you described without having to go through all this red tape?
    Answer. Yes.
    Question 7. The legislation would also go a step further and allow 
the Bureau to have clear title to the railroad line-is that correct?
    Answer. That is correct. Reclamation requires clear title to the 
track in order to be able to maintain and operate the track for the 
purpose of delivering chemicals to the Yuma Desalting Plant.

         Response to Question From Senator Murkowski on S. 1760

    Question 1. What are the outstanding capital obligations owed to 
the Bureau by the two Irrigation Districts at issue?
    Answer. The remaining construction obligation for the Medford 
Irrigation District is $589,760.32. The remaining construction 
obligation for the Rogue River Valley Irrigation District is 
$436,920.00.

         Responses to Questions From Senator Johnson on S. 1025

    Question 1. If I understand your testimony, Reclamation has 
participated in a demonstration project associated with the Equus Beds 
Division.
    Has the overall project been the subject of a feasibility 
assessment? If so, what was the result?
    Answer. Yes, a feasibility assessment by the city of Wichita was 
completed in April 2000. It was concluded the project was feasible and 
suitable for full scale implementation.
    Question 2. Is it Reclamation's position that the project is a good 
one--but there are simply no federal dollars to support it?
    Answer. Although the project has merit, given Reclamation's already 
tight budget, we are not in a position to support the addition of this 
project to the list of unfunded projects already authorized and 
awaiting Federal funding.

         Responses to Questions From Senator Johnson on S. 1498

    Question 1. Your testimony indicates that Reclamation is close to 
executing an MOU with the Northern Colorado Water Conservancy District, 
and will then need to thoroughly discuss issues associated with the 
transfer. Do you anticipate some difficult issues arising?
    Answer. While we have not yet identified all of the issues, we do 
not anticipate any at this point that cannot be resolved. A partial 
list of potential issues to address includes access to remaining 
project facilities for operation and maintenance, and the completion of 
a valuation of the facilities. This valuation would also include an 
analysis, to be conducted in cooperation with the Western Area Power 
Administration, of the payments necessary to fulfill the aid-to 
irrigation obligation associated with the facilities proposed to be 
transferred. While the District has fulfilled its contractually-
required repayment obligation, remaining costs for construction of the 
irrigation features that were considered beyond the District's ability-
to-pay are being paid by the power customers as ``aid to irrigation.'' 
Further, we need to determine the potential impacts of this transfer 
with, and on, other C-BT contractors and stakeholders to make sure that 
we protect their interests and ensure that there are no unintended 
consequences of this proposed transfer. While we have no indications 
that this will be a complicated effort, we believe it is important to 
complete this process before the transfer legislation is enacted.
    In addition, there has been a long-standing issue regarding 
ownership of the South Platte Supply Canal, one of the features 
proposed for transfer. While we are not aware of any formal opposition 
to the legislation from affected ditch companies, Reclamation has only 
had the opportunity to briefly discuss the legislation with one of the 
ditch companies.
    Question 2. The bill directs the Secretary of Treasury to transfer 
an unspecified amount of money from the Reclamation Fund to the 
Secretary of the Interior. What is the purpose of this transfer and how 
will that funding be utilized?
    Answer. We believe the intent of this section is to address payment 
of the remaining costs for construction of the irrigation features from 
power revenues (aid to irrigation) in the Pick Sloan Missouri Basin 
Program that were considered beyond the ability-to-pay of the District. 
The current language is unclear. In its place we suggest language 
similar to what was included in P.L. 106-376 addressing this issue.
    Question 3. Section 2 of the bill states: ``The Secretary shall, as 
soon as practicable after the date of the enactment of this Act and in 
accordance with all applicable law, convey to the District all right, 
title, and interest in and to the transferred water distribution 
facilities.'' Pursuant to this language, would Reclamation perform any 
NEPA analysis or ESA consultation as part of the title transfer 
process? If not, would there be any opportunity to identify any 
environmental issues that may arise as a result of the transfer?
    Answer. The language quoted is the same language as in Public Law 
106-376, which directed the transfer of certain other single 
distribution features of the Colorado-Big Thompson Project. Based on 
advice from the Office of the Solicitor, Reclamation determined that 
the transfer of title to the facilities pursuant to P.L. 106-376 was a 
non-discretionary Federal action and consequently NEPA and ESA 
requirements were not triggered. One of the reasons that we believe 
this transfer is premature is that we have had no opportunity to 
identify any environmental issues that could arise as part of the 
transfer. More time to work on this proposed transfer would enable us 
to identify environmental issues and work towards a solution in advance 
of or as part of the legislative process.

         Responses to Questions From Senator Johnson on S. 1529

    Question 1. Has there ever been any attempt by the City of Yuma or 
Reclamation to clear title to the railroad parcels? Is it the 
Administration's position that it already owns fee title to the 
railroad parcels? Is there any chance that either the City or 
Reclamation could recover on a claim against the Southern Pacific 
Transportation Co., which allegedly sold the parcels to each party?
    Answer. Railroad parcels were sold to the City of Yuma in 1974 by 
SPTC with no exemptions for the actual railroad track. In 1989 SPTC 
quit claimed the railroad track in its entirety to Reclamation (United 
States of America). Discussions have been held between the City of Yuma 
and Reclamation regarding title to the railroad track parcels. No 
agreements were reached. The Southern Pacific Transportation Co. (SPTC) 
also attempted to reconcile the error in approximately 1990. However, 
all of SPTC's interests were sold to Union Pacific Railroad prior to 
completion of any correction to the title. Reclamation could clear 
title to the railroad parcels through a judicial quiet title process. 
This would result in either a finding that the United States has title 
to the parcels at issue or a finding that the City has a valid claim 
and obtaining clear title would require the use of the United States' 
eminent domain powers and compensation for the City. There is a chance 
that the City or Reclamation could recover against SPTC but without 
more development of the underlying facts it is hard to predict the 
outcome of such a case, especially given that SPTC no longer exists.
    Question 2. Given your testimony that S. 1529 does not represent an 
equal value exchange, is it a correct to state that Reclamation does 
not believe clearing title to the railroad parcels has significant 
value?
    Answer. Having the ability to maintain and operate the railroad 
track is critical to the delivery of materials to the Yuma Desalting 
Plant. Because of the disputed title it is difficult to determine the 
monetary value of the railroad track parcels to Reclamation. However, 
Reclamation will need to clear title in order to protect the integrity 
of the track and guarantee our ability to deliver chemicals to the Yuma 
Desalting Plant.
    Question 3. You refer to GSA's criteria for land transfers that 
provide no compensation to the federal government. Can you give us an 
idea as to what those criteria are?
    Answer. GSA has prepared a brochure on this subject, available in 
pdf format at http://rc.gsa.gov/resourcecenter/PublicPages/
default.asp?type=3&page=2 Generally, Federal properties that are no 
longer needed by the Federal Government may be made available for 
public uses to state and local governments, regional agencies, and non-
profit organizations. Public uses for properties are those that are 
accessible to and can be shared by all members of a community, and 
include community centers, schools and colleges, parks, municipal 
buildings, and many other public uses. As explained in the GSA 
brochure, there are many different classes of public benefit 
conveyances, each sponsored by a designated Federal agency which is 
responsible for reviewing the application for the public benefit 
conveyance, educating the grantee of the conditions of the conveyance 
and deeding the property to the new owner where appropriate. Types of 
public benefit conveyances that may apply to the lands in Yuma include 
conveyance for the protection of public health, a program administered 
by the Department of Health and Human Services, and conveyance for a 
public park or recreation area, administered by the National Park 
Service. These types of conveyances allow a discount of up to 100% of 
the value of the property. If the City of Yuma's intended uses of the 
properties did not qualify for these programs, they might qualify for a 
negotiated sale, a transaction in which the Federal Government offers 
state and local governments the right to purchase property at appraised 
fair market value before it is offered to the general public. 
Negotiated sales must be conveyed with a public use in mind, such as a 
city municipal or administrative building, or redevelopment of the 
parcel of land.

          Response to Question From Senator Johnson on S. 1578

    Question 1. Your support for this legislation seems to indicate 
that the Administration views the programs as successful in improving 
the status of the endangered species involved.
    Is that indeed the case? Are these programs a good model for 
addressing endangered species requirements?
    Answer. The Upper Colorado River Endangered Fish Recovery Program 
and the San Juan River Basin Recovery Implementation Program are 
national models of cost-effective, collaborative efforts to recover 
endangered fish while managing water to serve human needs. The ongoing 
progress toward these programs' success has been recognized by State 
and Federal leaders throughout the country.
    Recovery is defined as an ``improvement in the status of listed 
species to the point at which listing is no longer appropriate under 
the criteria set out in Sec. 4(a)(1) of the Endangered Species Act.'' 
50 C.F.R. Sec. 402.02. Whether a species should be downlisted or 
delisted is based upon a 5 factor analysis of such threats as habitat 
destruction, disease or predation, overutilization for commercial or 
recreational purposes, inadequate regulatory mechanisms, and other 
natural or manmade factors. 16 U.S.C. Sec. 1533(a). Management actions 
implemented by the recovery programs to reduce or remove the threats to 
the survival of the endangered fish species show success.
    There are five populations of humpback chub and two populations of 
Colorado pikeminnow in the Upper Colorado River Basin. Stocked Colorado 
pikeminnow are surviving, stocked razorback sucker are reproducing, and 
recaptures of stocked bonytail indicate good growth and survival.
    Other species conservation or recovery partnerships have consulted 
with the Upper Colorado River and San Juan River programs for guidance 
to structure and implement similar programs for (as examples) the 
Klamath River Basin, June sucker, Virgin River, and Rio Grande.
    The Department of the Interior fully supports these recovery 
programs, as illustrated by the following quotes by Secretary of the 
Interior Gale Norton:

          ``Meeting the needs of endangered species while respecting 
        the legal rights of water users has been a priority of the 
        Department of the Interior under this Administration. In the 
        Upper Basin, we have had success building multi-stakeholder 
        programs to address the needs of listed species. The Upper 
        Colorado River Endangered Fish Recovery Program [is an example] 
        of how a broad group of stakeholders--including federal, state, 
        tribal, and private interests--can work together to improve 
        water management on the Colorado [River].'' (Excerpted)
          Secretary of the Interior Gale Norton, December 11, 2003
          Colorado River Water Users Association Annual Meeting, Las 
        Vegas, Nevada

                                 ______
                                 
          ``The programs [San Juan River Basin and Upper Colorado 
        River] are engaged in the hard, day to day work of recovering 
        endangered species. They provide Endangered Species Act 
        compliance for more than 800 water projects. Amazingly, no 
        lawsuits have been filed on ESA compliance on any of those 
        water projects. The Upper Colorado program has become a 
        national model for recovering endangered species while 
        addressing the demand for water development to support growing 
        western communities.''
          Secretary of the Interior Gale Norton, January 28, 2005
          Colorado Water Congress 47th Annual Convention, Denver, 
        Colorado

          Response to Question From Senator Johnson on S. 1760

    Question 1. You indicate that only one of the three irrigation 
districts involved in the Rogue River project had a repayment contracts 
that allowed for early repayment.
    Was there any policy reason at the time the contracts were 
developed for treating the districts differently?
    Answer. Nothing could be found within Reclamation's records that 
indicated a policy decision was made to treat the districts 
differently. Because contracts are in fact individually negotiated 
agreements, it is not uncommon to have contracts in the same project 
area with different contract language.
                                 ______
                                 
        Response of Jerry Blain to Question From Senator Johnson

    Question 1. S. 1025 Calls for a 25% federal investment, up to $30 
million, in support of the project. Is the project viable if that 
funding is not available?
    Answer. Wichita, KS and the surrounding region of nearly 500,000 
citizens must clearly have a reliable supply of water. Current 
projections indicate that water demands will exceed available supplies 
in the Wichita area in approximately 10 years. Therefore, the City will 
proceed with the project with or without federal investment. 
Nonetheless, federal investment in the project is appropriate for a 
number of reasons:

  <bullet> The project is innovative and breaks new ground in Kansas 
        for developing a sustainable water supply. The information 
        gained from this project will have water supply implications 
        beyond Kansas.
  <bullet> The project serves more than a regional water supply 
        interest. Without this project, water resources for a 
        significant agricultural area will be negatively impacted both 
        in terms of water quality and water quantity. Those parties are 
        not being asked to participate in the cost.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                  Washington, DC, October 11, 2005.
Hon. Larry Nelson,
Mayor, City of Yuma, Arizona.
    Dear Mayor Nelson: I would like to take this opportunity to thank 
you for appearing before the Senate Subcommittee on Water and Power of 
the Committee on Energy and Natural Resources on Thursday, October 6, 
2005, to give testimony regarding S. 1529, to provide for the 
conveyance of certain Federal land in the city of Yuma, Arizona.
    Enclosed herewith please find a list of questions which have been 
submitted for the record. If possible, I would like to have your 
response to these questions by Friday, October 28, 2005.
    Thank you in advance for your prompt consideration.
            Sincerely,
                                            Lisa Murkowski,
                         Chairman, Subcommittee on Water and Power.
[Enclosure.]
         Question for Lawrence K. Nelson From Senator Murkowski
    Question 1. I assume the City would prefer to accomplish this 
conveyance via the legislative route-is that correct?
         Questions for Lawrence K. Nelson From Senator Johnson
    Question 1. Does the City of Yuma believe that it presently holds 
fee title to the railroad parcels?
    Question 2. Reclamation has proposed language that would 
incorporate GSA criteria for the exchange. Is that language acceptable 
to the City?
                                 ______
                                 
                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                  Washington, DC, October 11, 2005.
Hon. Jim Witwer,
Northern Colorado Water Conservancy.
    Dear Mr. Witwer: I would like to take this opportunity to thank you 
for appearing before the Senate Subcommittee on Water and Power of the 
Committee on Energy and Natural Resources on Thursday, October 6, 2005, 
to give testimony regarding S. 1498, to direct the Secretary of the 
Interior to convey certain water distribution facilities to the 
Northern Colorado Water Conservancy District.
    Enclosed herewith please find a list of questions which have been 
submitted for the record. If possible, I would like to have your 
response to these questions by Friday, October 28, 2005.
    Thank you in advance for your prompt consideration.
            Sincerely,
                                            Lisa Murkowski,
                         Chairman, Subcommittee on Water and Power.
[Enclosure.]

           Question for James S. Witwer From Senator Johnson

    Question 1. The bill directs the Secretary of Treasury to transfer 
an unspecified amount of money from the Reclamation Fund to the 
Secretary of the Interior. What is the purpose of this transfer and how 
is it anticipated that the funding will be utilized?

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                  Left Hand Water District,
                                          Niwot, CO, July 21, 2005.
Hon. Wayne Allard, Ken Salazar, Marilyn Musgrave, and Mark Udall,
Washington, DC.
    Dear Senators Allard and Salazar and Representatives Musgrave and 
Udall: I am writing on behalf of the Left Hand Water District to voice 
our support for the proposed title transfer of single-purpose water 
conveyance facilities within the Colorado-Big Thompson (C-BT) Project. 
These facilities include the St. Vrain Supply Canal the Boulder Creek 
Feeder Canal, the Boulder Creek Supply Canal, and the South Platte 
Supply Canal.
    As a C-BT Project water user and dependent upon the St. Vrain 
Supply Canal and Boulder Feeder Canal for a portion of our water 
supply, we feel this title transfer is in the best interests of our 
constituents. We have benefited from the Northern Colorado Water 
Conservancy District's operations of the facilities over the past 48 
years. Their high standard of facilities maintenance and their ability 
to work progressively with water users if and when issues arise have 
enhanced the reliability of the supplies we receive from the C-BT 
Project.
    We wholeheartedly support the title transfer of these single-
purpose water conveyance facilities from the United States to the 
Northern Colorado Water Conservancy District.
            Sincerely,
                                            Kathy Peterson,
                                                   General Manager.
                                 ______
                                 
  New Consolidated Lower Boulder Reservoir & Ditch Company,
                                       Longmont, CO, July 22, 2005.
Hon. Wayne Allard, Ken Salazar, Marilyn Musgrave, and Mark Udall,
Washington, DC.
    Dear Senators Allard and Salazar and Representatives Musgrave and 
Udall: I am writing on behalf of the New Consolidated Lower Boulder 
Reservoir and Ditch Company to voice our support for the proposed title 
transfer of single-purpose water conveyance facilities within the 
Colorado-Big Thompson (C-BT) Project. These facilities include the St. 
Vrain Supply Canal the Boulder Creek Feeder Canal, the Boulder Creek 
Supply Canal, and the South Platte Supply Canal.
    As a C-BT Project water user and dependent upon the St. Vrain 
Supply Canal and (Boulder Supply/Boulder Feeder and/or South Platte 
Supply) Canal for a portion of our water supply, we feel this title 
transfer is in the best interests of our constituents. We have 
benefited from the Northern Colorado Water Conservancy District's 
operations of the facilities over the past 48 years. Their high 
standard of canal maintenance and their ability to work with water 
users if and when issues arise have enhanced the reliability of the 
supplies we receive from the C-BT Project.
    We wholeheartedly support the title transfer of these single-
purpose water conveyance facilities from the United States to the 
Northern Colorado Water Conservancy District.
            Sincerely,
                                          David J. Yardley,
                                                         Secretary.
                                 ______
                                 
                        City of Longmont, Colorado,
                     Water/Wastewater Utilities Department,
                                       Longmont, CO, July 22, 2005.
Hon. Wayne Allard,
U.S. Senate, Washington, DC.
    Dear Senator Allard: I am writing on behalf of the City of Longmont 
Water/Wastewater Utilities to voice our support for the proposed title 
transfer of single-purpose water conveyance facilities within the 
Colorado-Big Thompson (C-BT) Project. These facilities include the St. 
Vrain Supply Canal, the Boulder Creek Feeder Canal, the Boulder Creek 
Supply Canal, and the South Platte Supply Canal.
    As a C-BT Project water user, Longmont has and will continue to 
rely on the St. Vrain Supply Canal for delivery of a critical portion 
of our water supply. I feel this title transfer is in the best 
interests of our customers by placing both the ownership as well as the 
responsibility to maintain the Canal with the Northern Colorado Water 
Conservancy District. This action will assist in ensuring that the St. 
Vrain Supply Canal continues to reliably deliver water to Longmont as 
well as many other water users in the St. Vrain Valley.
    Longmont's water customers have benefited from the Northern 
Colorado Water Conservancy District's operations of the facilities over 
the past 48 years. Their local presence, along with their high standard 
of canal maintenance and ability to work with water users if and when 
issues arise, has enhanced the reliability of the supplies we receive 
from the C-BT Project.
    I wholeheartedly support the title transfer of these single-purpose 
water conveyance facilities from the United States to the Northern 
Colorado Water Conservancy District.
            Sincerely,
                                        Dale F. Rademacher,
                                                          Director.
                                 ______
                                 
                           Vranesh and Raisch, LLP,
                                          Attorneys at Law,
                                        Boulder, CO, July 22, 2005.
Hon. Wayne Allard, Ken Salazar, Marilyn Musgrave, and Mark Udall,
Washington, DC.
    Dear Senators Allard and Salazar and Representatives Musgrave and 
Udall: I am writing on behalf of the Town of Erie to voice its support 
for the proposed title transfer of single-purpose water conveyance 
facilities within the Colorado-Big Thompson (C-BT) Project. These 
facilities include the St. Vrain Supply Canal, the Boulder Creek Feeder 
Canal, the Boulder Creek Supply Canal, and the South Platte Supply 
Canal.
    CBT water comprises an important component of the Town's water 
portfolio. As a C-BT Project water user and one which will rely upon 
the St. Vrain Supply Canal and the Boulder Supply/Boulder Feeder Canals 
for a portion of the Town's water supply, Erie feels this title 
transfer is in the best interests of its constituents. The Northern 
Colorado Water Conservancy District's high standard of canal 
maintenance and their ability to work with water users if and when 
issues arise have enhanced the reliability of the supplies the Town 
receives from the C-BT Project.
    The Town of Erie wholeheartedly supports the title transfer of 
these single-purpose water conveyance facilities from the United States 
to the Northern Colorado Water Conservancy District. Please feel free 
to contact me with any questions.
            Sincerely,
                                             Paul K. Zilis.
                                 ______
                                 
                              New Coal Ridge Ditch Company,
                                       Longmont, CO, July 25, 2005.
Hon. Wayne Allard, Ken Salazar, Marilyn Musgrave, and Mark Udall,
Washington, DC.
    Dear Senators Allard and Salazar and Representatives Musgrave and 
Udall: I am writing on behalf of the New Coal Ridge Ditch Company 
(``Company'') to voice our support for the proposed title transfer of 
single-purpose water conveyance facilities within the Colorado-Big 
Thompson (C-BT) Project. The Company depends upon the Saint Vrain 
Supply Canal, the Boulder Creek Supply Canal and the South Platte 
Supply Canal for a portion of its water supply. The Company believes 
this title transfer is in the best interests of its shareholders. The 
Company has benefited from the Northern Colorado Water Conservancy 
District's operations of the facilities over the past 48 years, their 
high standard of canal maintenance and their ability to work with water 
users if and when issues arise have enhanced the reliability of the 
supplies the Company receives from the C-BT Project.
    The Company supports the title transfer of facilities from the 
United States to the Northern Colorado Water Conservancy District.
            Sincerely,
                                              Alfred Sater,
                                                         President.
                                 ______
                                 
                         City of Boulder, Colorado,
                                       City Council Office,
                                        Boulder, CO, July 27, 2005.
Hon. Wayne Allard, Ken Salazar, Marilyn Musgrave, and Mark Udall,
Washington, DC.
    Dear Senators Allard and Salazar and Representatives Musgrave and 
Udall: I am writing on behalf of the City of Boulder to voice the 
City's support for the proposed title transfer of single-purpose water 
conveyance facilities within the southern portion of the Colorado-Big 
Thompson (CBT) Project. These facilities include the St. Vrain Supply 
Canal, the Boulder Creek Feeder Canal, the Boulder Creek Supply Canal, 
and the South Platte Supply Canal.
    The City of Boulder is a CBT Project allottee and a Windy Gap 
Project allottee. These water supplies are delivered to Boulder through 
the St. Vrain Supply Canal and Boulder Feeder Canal into Boulder 
Reservoir. The City obtains half of its municipal water supply from CBT 
water either used directly at the Boulder Reservoir Water Treatment 
Plant or exchanged to diversion points on Boulder Creek tributaries 
through the Boulder Supply Canal. Due to the City's great reliance on 
these facilities, we believe this title transfer is beneficial to our 
citizens. The Northern Colorado Water Conservancy District has done a 
superior job of maintaining and operating these facilities since 1957 
when the facilities first went into operation. The District has adhered 
to a very high standard of canal maintenance and has operated in a 
cost-efficient manner. Based on the District's proven record of working 
closely with water users to be responsive to their needs, we are 
confident that the title transfer of these facilities will continue and 
enhance the reliability of the water supplies we receive from the CBT 
Project.
    The City of Boulder strongly supports the title transfer of these 
single-purpose water conveyance facilities from the United States to 
the Northern Colorado Water Conservancy District.
    Thank you for your consideration of this proposal.
            Sincerely,
                                               Mark Ruzzin,
                                                             Mayor.
                                 ______
                                 
                               State of New Mexico,
                                    Office of the Governor,
                                   Santa Fe, NM, September 8, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.
Re: Support for Enactment of S. 1578, the Upper Colorado and San Juan 
Basin Endangered Fish Recovery Implementation Programs Reauthorization 
Act of 2005

    Dear Chairman Murkowski: On July 29, 2005, Senator Allard, along 
with co-sponsors from the States of Colorado and Utah, introduced S. 
1578, the Upper Colorado and San Juan Basin Endangered Fish Recovery 
Implementation Programs Reauthorization Act of 2005. I am writing to 
express my strong support for this bill and to urge its enactment into 
law as soon as possible.
    This bill is needed for completion of the capital construction 
projects associated with the San Juan River Basin Recovery 
Implementation Program and the Upper Colorado River Endangered Fish 
Recovery Program. Successful completion of these programs is necessary 
to provide Endangered Species Act compliance for the states to develop 
and use their compact-apportioned waters. Enactment of S. 1578 will 
amend Public Law 106-392 by extending the construction authorization 
period for both the Upper Colorado and San Juan River recovery programs 
from 2008 to September 30, 2010. In addition, the bill increases the 
authorized ceiling by $15.0 million for capital construction for the 
Upper Colorado River Program to address a recognized shortfall of 
measures to recover endangered fish species.
    The goals of these two successful programs are to recover the 
Colorado River endangered fish species and to allow water development 
in the Upper Colorado and San Juan river basins to proceed in 
compliance with state laws, interstate compacts, the Endangered Species 
Act, other federal laws, and Indian trust responsibilities.
    New Mexico is most appreciative of the Subcommittee's past support 
of the authorizing legislation for the capital construction activities 
of the two recovery programs and again seeks your assistance in 
accomplishing the necessary extension of time period and increase in 
authorization ceiling. Thank you for your consideration of this 
request.
            Sincerely,
                                           Bill Richardson,
                                                          Governor.
                                 ______
                                 
                                 State of Colorado,
                                        Executive Chambers,
                                    Denver, CO, September 20, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.
    Dear Chairman Murkowski: On July 29th, Senator Allard,, along with 
his colleagues from the States of Colorado and Utah. introduced S. 
1578, the Upper Colorado and San Juan Basin Endangered Fish Recovery 
Implementation Programs Reauthorization Act of 2005. I am writing to 
express my strong support for this bill and to urge its enactment into 
law as soon as possible.
    This bill is needed to allow completion of the capital construction 
projects associated with the Upper Colorado River and San Juan River 
Basin Recovery Implementation Programs. Its enactment will amend Public 
Law 106-392 by increasing the authorized ceiling by $15.0 Million for 
capital construction for the Upper Colorado River Endangered Fish 
Recovery Program. In addition, the measure extends the construction 
authorization period for both the Upper Colorado and San Juan River 
recovery programs from 2008 to September 30, 2010.
    The goal of these two successful programs is to recover the 
Colorado River endangered fish species in a manner that is consistent 
with state and tribal laws, interstate compacts, the Endangered Species 
Act, other federal laws, and Indian trust responsibilities.
    Thank you for your consideration of this request. Sincerely,
            Sincerely,
                                                Bill Owens,
                                                          Governor.
                                 ______
                                 
                   Central Utah Water Conservancy District,
                                       Orem UT, September 28, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.

Hon. Tim Johnson,
Ranking Member, Water and Power Subcommittee, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Re: Support for S. 1578: To Reauthorize the Upper Colorado and San Juan 
River Endangered Fish Recovery Implementation Programs--October 6, 2005 
Hearing

    Dear Senator Murkowski and Senator Johnson: We are requesting that 
the Subcommittee on Water and Power approve S. 1578, the bill to 
reauthorize the Upper Colorado River and San Juan River basins 
endangered fish recovery programs. These programs are recovering 
endangered fish species in a manner that is compatible with state 
wildlife and water law. The programs provide ESA compliance for more 
than 800 water projects, including federal Reclamation projects and 
tribal projects in the Upper Colorado River and San Juan River basins.
    The programs have enjoyed bipartisan support both in Congress and 
through several administrations since 1988.
    We would appreciate your continued support of these two vital 
programs with approval of S. 1578.
            Sincerely,
                                       Don A. Christiansen,
                                                   General Manager.
                                 ______
                                 
                     Tri-County Water Conservancy District,
                                  Montrose, CO, September 28, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.

Hon. Tim Johnson,
Ranking Member, Water and Power Subcommittee, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Re: Support for S. 1578: To Reauthorize the Upper Colorado and San Juan 
River Endangered Fish Recovery Implementation Programs--October 6, 2005 
Hearing

    Dear Senator Murkowski and Senator Johnson: We are requesting that 
the Subcommittee on Water and Power approve S. 1578. the bill to 
reauthorize the Upper Colorado River and San Juan River basins 
endangered fish recovery programs. These programs are recovering 
endangered fish species in a manner that is compatible with state 
wildlife and water law. The programs provide ESA compliance for more 
than 800 water projects, including federal Reclamation projects and 
tribal projects in the Upper Colorado River and San Juan River basins.
    The programs have enjoyed bipartisan support both in Congress and 
through several administrations since 1988.
    We would appreciate your continued support of these two vital 
programs with approval of S. 1578.
            Sincerely,
                                                Mike Berry,
                                                           Manager.
                                 ______
                                 
           Upper Gunnison River Water Conservancy District,
                                  Gunnison, CO, September 28, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.

Hon. Tim Johnson,
Ranking Member, Water and Power Subcommittee, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Re: Support for S. 1578: To Reauthorize the Upper Colorado and San Juan 
River Endangered Fish Recovery Implementation Programs--October 6, 2005 
Hearing

    Dear Senator Murkowski and Senator Johnson: We are requesting that 
the Subcommittee on Water and Power approve S. 1578, the bill to 
reauthorize the Upper Colorado River and San Juan River basins 
endangered fish recovery programs. These programs are recovering 
endangered fish species in a manner that is compatible with state 
wildlife and water law. The programs provide ESA compliance for more 
than 800 water projects, including federal Reclamation projects and 
tribal projects in the Upper Colorado River and San Juan River basins. 
The program is very important to water users through out the Upper 
Colorado River and San Juan River Basins.
    The programs have enjoyed bipartisan support both in Congress and 
through several administrations since 1988. We would appreciate your 
continued support of these two vital programs with approval of S. 1578.
    Please feel free to contact us if you have any questions or 
comments.
            Sincerely,
                                          Karen H. Shirley,
                                                  District Manager.
                                 ______
                                 
                                   Colorado Water Congress,
                                    Denver, CO, September 28, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.

Hon. Tim Johnson,
Ranking Member, Water and Power Subcommittee, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Re: Support for S. 1578: To Reauthorize the Upper Colorado and San Juan 
River Endangered Fish Recovery Implementation Programs--October 6, 2005 
Hearing

    Dear Senator Murkowski and Senator Johnson: The Colorado Water 
Congress is a statewide organization of municipal, agricultural, 
industrial, and recreational water users. The Colorado Water Congress 
joins the governors of Colorado, New Mexico, Utah, and Wyoming in 
requesting that the Subcommittee on Water and Power approve S. 1578, 
the bill to reauthorize the Upper Colorado River and San Juan River 
basins endangered fish recovery programs. These programs are recovering 
endangered fish species in a manner that is compatible with state 
wildlife and water law. The programs provide ESA compliance for more 
than 800 water projects, including federal Reclamation projects and 
tribal projects in the Upper Colorado River and San Juan River basins.
    The requested increase in authorization ceiling of $15 million is 
needed to complete the capital construction program in the Upper 
Colorado River Basin. The increase is justified based on increased 
energy costs, increased price of construction materials, including 
steel and cement, and some unanticipated construction difficulties 
resulting from site-specific design considerations. The requested two 
year time extension is needed to keep appropriations requests at levels 
similar to previous year.
    An additional $11 million in non-federal cost sharing is being 
provided, bringing the total requested authorization to $126 million. 
Of this amount, $65 million is being provided in non-federal cost share 
from the states, water users, and power users, and $61 million in 
federal appropriations.
    The programs have enjoyed bipartisan support both in Congress and 
through several administrations since 1988. They have been cited by 
various administrations as ``success stories'' and as a ``model of how 
the Endangered Species Act should be implemented.''
    We would appreciate your continued support of these two vital 
programs with approval of S. 1578.
            Sincerely,
                                                 Tom Pitts,
                                               Project Coordinator,
              Special Project on Threatened and Endangered Species.
                                 ______
                                 
                                 San Juan Water Commission,
                                Farmington, NM, September 29, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.
Re: Support for S. 1578: To Reauthorize the Upper Colorado and San Juan 
River Endangered Fish Recovery Implementation Programs--October 6, 2005 
Hearing

    Dear Senator Murkowski: We are requesting that the Subcommittee on 
Water and Power approve S. 1578, the bill to reauthorize the Upper 
Colorado River and San Juan River basins endangered fish recovery 
programs. These programs are recovering endangered fish species in a 
manner that is compatible with state wildlife and water law. The 
programs provide ESA compliance for more than 800 water projects, 
including federal Reclamation projects and tribal projects in the Upper 
Colorado River and San Juan River basins.
    The programs have enjoyed bipartisan support both in Congress and 
through several administrations since 1988.
    We would appreciate your continued support of these two vital 
programs with approval of S. 1578.
            Sincerely,
                                      L. Randy Kirkpatrick,
                                                Executive Director.
                                 ______
                                 
         APS, a Subsidiary of Pinnale West Capital 
                                       Corporation,
                                  Four Corners Power Plant,
                                 Fruitland, NM, September 30, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.

Hon. Tim Johnson,
Ranking Member, Water and Power Subcommittee, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Re: Support for S. 1578: To Reauthorize the Upper Colorado and San Juan 
River Endangered Fish Recovery Implementation Programs--October 6, 2005 
Hearing

    Dear Senator Murkowski and Senator Johnson: We are requesting that 
the Subcommittee on Water and Power approve S. 1578, the bill to 
reauthorize the Upper Colorado River and San Juan River basins 
endangered fish recovery programs. These programs are recovering 
endangered fish species in a manner that is compatible with state 
wildlife and water law. The programs provide ESA compliance for more 
than 800 water projects, including federal Reclamation projects and 
tribal projects in the Upper Colorado River and San Juan River basins.
    The programs have enjoyed bipartisan support both in Congress and 
through several administrations since 1988. We would appreciate your 
continued support of these two vital programs with approval of S. 1578.
            Sincerely,
                                           David L. Saliba,
                                                     Plant Manager.
                                 ______
                                 
            Colorado River Energy Distributors Association,
                                     Tempe, AZ, September 30, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.

Hon. Tim Johnson,
Ranking Member, Water and Power Subcommittee, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Re: Support for S. 1578: To Reauthorize the Upper Colorado and San Juan 
River Endangered Fish Recovery Implementation Programs--October 6, 2005 
Hearing

    Dear Senator Murkowski and Senator Johnson: The Colorado River 
Energy Distributors Association (CREDA) is a non-profit organization 
comprised of 155 electric systems in the states of Arizona, Colorado, 
New Mexico, Nevada, Wyoming and Utah, who are firm power customers of 
the Colorado River Storage Project (CRSP). CREDA is also an active 
participant in the technical and policy committees of the Upper Basin 
Endangered Fish Recovery Implementation Program (RIP), and CRSP power 
revenues have funded both capital ($17 million) and o&m (up to $6 
million annually) aspects of the RIP.
    CREDA testified in support of the RIP at the time of original 
authorization, and supports passage of S. 1578. The bill requests a $15 
million increase in the authorization ceiling, as well as a two-year 
time extension. Further, the bill provides an additional $11 million in 
non-federal cost sharing. This increase results in a total program 
authorization of $126 million, $61 million of which is provided by 
federal appropriations. The increase in funding and time extension is 
necessary for the program to complete construction of the capital 
features and to keep appropriations requests at levels similar to the 
previous year.
    CREDA would appreciate your support of the program through passage 
of S. 1578.
            Sincerely,
                                              Leslie James,
                                                Executive Director.
                                 ______
                                 
              Northern Colorado Water Conservancy District,
                                     Tempe, AZ, September 30, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.

Hon. Tim Johnson,
Ranking Member, Water and Power Subcommittee, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Re: Support for S. 1578: To Reauthorize the Upper Colorado and San Juan 
River Endangered Fish Recovery Implementation Programs--October 6, 2005 
Hearing

    Dear Senator Murkowski and Senator Johnson: On behalf of the Board 
of Directors of the Northern Colorado Water Conservancy District, I am 
requesting that the Subcommittee on Water and Power approve S. 1578, 
the bill to reauthorize the Upper Colorado River Basin and San Juan 
River Basin endangered fish recovery programs. These programs are 
recovering endangered fish species in a manner that is compatible with 
state law. The programs provide ESA compliance for more than 800 water 
projects, including federal Reclamation projects and tribal projects in 
the Upper Colorado River and San Juan River basins.
    The programs have enjoyed bipartisan support both in Congress and 
through several administrations since 1988.
    We would appreciate your continued support of these two vital 
programs with approval of S. 1578.
            Sincerely,
                                         Eric W. Wilkinson,
                                                   General Manager.
                                 ______
                                 
                                City of Aurora, CO,
                           Water Department Administration,
                                       Aurora, CO, October 2, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.

Hon. Tim Johnson,
Ranking Member, Water and Power Subcommittee, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Re: Support for S. 1578: To Reauthorize the Upper Colorado and San Juan 
River Endangered Fish Recovery Implementation Programs--October 6, 2005 
Hearing

    Dear Senator Murkowski and Senator Johnson: We are requesting that 
the Subcommittee on Water and Power approve S. 1578, the bill to 
reauthorize the Upper Colorado River and San Juan River basins 
endangered fish recovery programs. These programs are recovering 
endangered fish species in a manner that is compatible with state 
wildlife and water law. The programs provide ESA compliance for more 
than 800 water projects, including federal Reclamation projects and 
tribal projects in the Upper Colorado River and San Juan River basins.
    The programs have enjoyed bipartisan support both in Congress and 
through several administrations since 1988.
    We would appreciate your continued support of these two vital 
programs with approval of S. 1578.
            Sincerely,
                                           Peter D. Binney,
                                                          Director.
                                 ______
                                 
                                              Denver Water,
                                       Denver, CO, October 3, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.

Hon. Tim Johnson,
Ranking Member, Water and Power Subcommittee, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Re: Support for S. 1578: To Reauthorize the Upper Colorado and San Juan 
River Endangered Fish Recovery Implementation Programs--October 6, 2005 
Hearing

    Dear Senator Murkowski and Senator Johnson: Denver Water is 
requesting that the Subcommittee on Water and Power approve S. 1578, 
the bill to reauthorize the Upper Colorado River and San Juan River 
basins endangered fish recovery programs. These programs are recovering 
endangered fish species in a manner that is compatible with state 
wildlife and water law. The programs provide ESA compliance for more 
than 800 water projects, including federal Reclamation projects and 
tribal projects in the Upper Colorado River and San Juan River basins.
    The programs have enjoyed bipartisan support both in Congress and 
through several administrations since 1988.
    We would appreciate your continued support of these two vital 
programs with approval of S. 1578. Sincerely,
            Sincerely,
                                                H.J. Barry,
                                                           Manager.
                                 ______
                                 
                              Harry & David Holdings, Inc.,
                                      Medford, OR, October 3, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.
    Dear Senator Murkowski: As President and CEO of Harry & David 
Holdings, Inc., I ask the Committee's support for S. 1760. You may know 
our Company through our holiday gift baskets or our signature products, 
Harry and David's Royal Riviera<SUP>'</SUP> pears and Jackson & 
Perkins<SUP>'</SUP> roses. Harry & David Holdings, Inc. is 
headquartered in Medford, Oregon. In addition to our extensive fruit 
growing, production and customer service operations in Oregon, we have 
rose growing operations in California, a call center and distribution 
facility in Ohio, and Harry and David stores in 34 states. The 
thousands of employees that will benefit from the continued strength 
and growth of our enterprise also ask the Committee's support for S. 
1760.
    Harry & David Holdings, Inc. is seeking an early-repayment option 
of its financial obligations to the U.S. Bureau of Reclamation so it 
will have flexibility in financing the continued growth and development 
of its businesses. This legislation will allow landowners in the Rogue 
River Valley Irrigation District and the Medford Irrigation District to 
make an EARLY repayment of their financial obligations. The only other 
irrigation district in Southern Oregon, Talent Irrigation District, has 
an early-repayment option in its contract. As you know, other water 
districts and irrigation districts across the Reclamation West have 
9(d) repayment contracts that include an early repayment option.
    If Harry & David were to make an early repayment of its obligation 
to the Bureau of Reclamation in all three Southern Oregon water 
districts today, the income to the Bureau is estimated to be 
$240,000.00.
    This legislation is as important to us for what it will do, as it 
is important to others in the Districts for what it will not do. It 
will not modify the contractual rights that may exist between the 
Districts and the United States under their respective Reclamation 
contracts, or amend or reopen those contracts; nor does it modify any 
rights, obligations or relationships that may exist between the 
districts and their landowners as may be provided or governed by Oregon 
state law.
    This legislation was developed in collaboration with the Department 
of the Interior, our Congressional delegation and the Southern Oregon 
irrigation districts. We wish to extend our thanks to Senators Wyden 
and Smith and Congressman Walden, and the Department of the Interior 
for their assistance and the tremendous effort they have made in 
helping us find a win/win solution.
    We would appreciate the Committee's support for S. 1760's passage 
and ultimate enactment into law.
    Thank you for your consideration of S. 1760.
            Sincerely,
                                       William H. Williams,
                                                 President and CEO.
                                 ______
                                 
                                  State of Wyoming,
                                    Office of the Governor,
                                     Cheyenne, WY, October 3, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.
Re: Support for S. 1578, the Upper Colorado and San Juan River 
Endangered Fish Recovery Implementation Programs Reauthorization Act of 
2005

    Dear Chairman Murkowski: On July 29th, Senator Allard, along with 
his colleagues from the States of Colorado and Utah, introduced S. 
1578, the Upper Colorado and San Juan Basin Endangered Fish Recovery 
Implementation Programs Reauthorization Act of 2005: I am writing to 
express my strong support for this bill and to urge its enactment into 
law as soon as possible.
    This bill is needed to allow completion of the capital construction 
projects associated with the Upper Colorado River and San Juan River 
Basin Recovery Implementation Programs. Its enactment will amend Public 
Law 106-392 by increasing the authorized ceiling by $15.0 Million for 
capital construction for the Upper Colorado River Endangered Fish 
Recovery Program. In addition, the measure extends the construction 
authorization period for both the Upper Colorado and San Juan River 
recovery programs from 2008 to September 30, 2010.
    The goal of these two successful programs is to recover the 
Colorado River endangered fish species in a manner that is consistent 
with state and tribal laws, interstate compacts, the Endangered Species 
Act, other federal laws, and Indian trust responsibilities.
    We are most appreciative of the Subcommittee's past support of the 
authorizing legislation for the capital construction activities of the 
two recovery programs and we again seek your assistance in 
accomplishing the necessary extension of time period and increase in 
authorization ceiling. Thank you for your consideration of this 
request.
    With best regards,
                                          Dave Freudenthal,
                                                          Governor.
                                 ______
                                 
                  Southwestern Water Conservation District,
                                      Durango, CO, October 4, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.

Hon. Tim Johnson,
Ranking Member, Water and Power Subcommittee, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Re: Support for S. 1578: To Reauthorize the Upper Colorado and San Juan 
River Endangered Fish Recovery Implementation Programs--October 6, 2005 
Hearing

    Dear Senator Murkowski and Senator Johnson: We are requesting that 
the Subcommittee on Water and Power approve S. 1578, the bill to 
reauthorize the Upper Colorado River and San Juan River basins 
endangered fish recovery programs. These programs are recovering 
endangered fish species in a manner that is compatible with state 
wildlife and water law. The programs provide ESA compliance for more 
than 800 water projects, including federal Reclamation projects and 
tribal projects in the Upper Colorado River and San Juan River basins.
    The programs have enjoyed bipartisan support both in Congress and 
through several administrations since 1988.
    We would appreciate your continued support of these two vital 
programs with approval of S. 1578.
            Sincerely,
                                           Fred V. Kroeger,
                                                         President.
                                 ______
                                 
                Colorado River Water Conservation District,
                             Glenwood Springs, CO, October 4, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.

Hon. Tim Johnson,
Ranking Member, Water and Power Subcommittee, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Re: Support for S. 1578--October 6, 2005 Hearing

    Dear Senator Murkowski and Senator Johnson: On behalf of my board 
and Western Colorado, I respectfully urge the Sub-committee's approval 
S. 1578, reauthorizing the Upper Colorado River and San Juan River 
basins endangered fish recovery programs. Western Colorado water users 
have been active partners in these two exemplary programs. These 
programs are successfully recovering the listed fish species consistent 
with state wildlife and water law. These two programs have been 
heralded as how the current ESA can and should be administered in 
cooperation with states, affected interests, and the general public. 
These two programs provide ESA compliance for more than 800 water 
projects, including federal Reclamation projects and tribal projects in 
the Upper Colorado River and San Juan River basins.
    The programs have enjoyed broad bipartisan support both in Congress 
and through several administrations since 1988. We would appreciate 
your continued support of these two vital programs with approval of S. 
1578.
            Sincerely,
                                              R. Eric Kuhn,
                                                   General Manager.
                                 ______
                                 
                                 Wyoming Water Association,
                                     Cheyenne, WY, October 6, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.

Hon. Tim Johnson,
Ranking Member, Water and Power Subcommittee, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Re: Support for S. 1578: To Reauthorize the Upper Colorado and San Juan 
River Endangered Fish Recovery Implementation Programs--October 6, 2005 
Hearing

    Dear Senator Murkowski and Senator Johnson: The Wyoming Water 
Association supports the passage of S. 1578, a bill to reauthorize the 
Upper Colorado and San Juan River Endangered Fish Recovery 
Implementation Programs. The objectives of the state-wide Wyoming Water 
Association are to promote the development, conservation, and 
utilization of the water resources of Wyoming for the benefit of 
Wyoming people. The Wyoming Water Association adopted a resolution 
supporting the Upper Colorado Recovery Implementation Program at the 
time the Program was initiated in January 1988 and is a participating 
entity in the Upper Colorado Recovery Program. We are represented on 
the Upper Colorado Recovery Program's Biology, Management and 
Implementation Committees by Mr. Tom Pitts, of Water Consult, Inc. We 
join our Program partners, including the States of Colorado, New 
Mexico, Utah, and Wyoming and power and conservation community 
interests in requesting that the Subcommittee on Water and Power 
approve S. 1578.
    The Upper Colorado and San Juan recovery programs are recovering 
endangered fish species in a manner that is compatible with state 
wildlife and water law. The programs provide ESA compliance for more 
than 800 water projects, including federal Reclamation projects and 
tribal projects in the Upper Colorado River and San Juan River basins.
    S. 1578 has been introduced to provide an increase in the 
appropriations authorization ceiling needed for the recovery programs' 
capital construction projects. The bill authorizes an increase of $15 
million and is both needed and justified based on increased fuel and 
energy costs, increased price of construction materials (including 
steel and cement) and some unanticipated construction difficulties 
resulting from site-specific design considerations. The requested two-
year time extension is needed to keep appropriations requests at levels 
similar to previous year's appropriations to the Bureau of Reclamation 
for these necessary construction activities.
    An additional $11 million in non-federal cost sharing is being 
provided, bringing the total requested authorization to $126 million. 
Of this amount, $65 million is being provided in non-federal cost share 
from the states, water users, and power users, and $61 million in 
federal appropriations.
    These programs have enjoyed continued support in Congress and 
involve multiple federal agency participation in their ongoing 
implementation. The Wyoming Water Association is pleased to note that 
these programs have been touted and held up as national models for how 
resources use and development can continue in concert with Endangered 
Species Act compliance under the current law.
    The members of the Wyoming Water Association again request and will 
greatly appreciate your continued support of these two vital programs 
through approval of S. 1578.
            Sincerely yours,
                                           John W. Shields,
                                               Executive Secretary.
                                 ______
                                 
                                                       PNM,
                                 Albuquerque, NM, October 31, 2005.
Hon. George Radanovich,
Chair, Subcommittee on Water and Power, Resources Committee, U.S. House 
        of Representatives, Washington, DC.

Hon. Grace Napolitano,
Ranking Member, Subcommittee on Water and Power, Resources Committee, 
        U.S. House of Representatives, Washington, DC.
Support for H.R. 3153: To Reauthorize the Upper Colorado and San Juan 
River Endangered Fish Recovery Implementation Programs--November 3, 
2005 Hearing

    Dear Chairman Radanovich and Representative Napolitano: We are 
requesting that the Subcommittee on Water and Power approve H.R. 3153, 
the bill to reauthorize the Upper Colorado River and San Juan River 
basins endangered fish recovery programs. These programs are recovering 
endangered fish species in a manner that is compatible with state 
wildlife and water law. The states of Colorado, Wyoming, Utah, and New 
Mexico, environmentalists, tribes, and water users are working 
collaboratively with federal agencies to achieve recovery of four 
endangered fish species. The programs provide ESA compliance for more 
than 800 water projects, including federal Reclamation projects and 
tribal projects in the Upper Colorado River and San Juan River basins.
    The programs have enjoyed bipartisan support both in Congress and 
through several administrations since 1988.
    Please include this letter in the hearing record.
    We would appreciate your continued support of these two vital 
programs with approval of H.R. 3153.
            Sincerely,
                                                John Myers,
                                  Vice President, Power Production.
                                 ______
                                 
                            The Nature Conservancy,
                                Western Resource Advocates,
                                                   October 6, 2005.
Hon. Lisa Murkowski,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.

Hon. Tim Johnson,
Ranking Member, Water and Power Subcommittee, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Re: Support for S. 1578: To Reauthorize the Upper Colorado and San Juan 
River Endangered Fish Recovery Implementation Programs--October 6, 2005 
Hearing

    Dear Senator Murkowski and Senator Johnson: The Nature Conservancy 
and Western Resource Advocates are long-time participants as 
conservation representatives to the Upper Colorado River Endangered 
Fish Recovery Program. As such, we join the governors of Colorado, New 
Mexico, Utah, and Wyoming, and other program participants in requesting 
that the Subcommittee on Water and Power approve S. 1578, the bill to 
reauthorize the Upper Colorado River and San Juan River basins 
endangered fish recovery programs. The Upper Colorado River Program, in 
which we participate, takes a collaborative approach to endangered fish 
recovery, seeking to recover species while providing for continued 
human uses of water. It has been cited by various observers as a model 
for implementation of the Endangered Species Act, and has enjoyed 
bipartisan support both in Congress and through several administrations 
since 1988.
    At the same time, we would like to take this opportunity to 
emphasize two additional aspects of the Upper Colorado Program, because 
the continued success of this Program depends not only on the 
completion of its capital components which would be made possible by 
the passage of S. 1578, but also on the rigorous application of 
adaptive management and on stable, long-term base funding.

  <bullet> Adaptive Management Framework: The Upper Colorado Program 
        has recently adopted a rigorous, science-based framework for 
        evaluating the connection between program activities and 
        recovery of the species. We believe this framework is necessary 
        to improve recovery actions over time, to ensure wise 
        allocation of program resources, and ultimately, to achieve 
        lasting recovery of the species.
  <bullet> Long-term Base Funding: This capital expenditure 
        authorization will ensure completion of important, on-the-
        ground facilities that protect and enhance native endangered 
        fish. Equally important to capital construction, though, is the 
        long-term annual funding for this Program. The recovery 
        objective is not assured with completion of capital projects in 
        2010; rather, we will continue to work for years to come to 
        control threats to the species like predatory non-native fish, 
        to rear and stock the rarer species, to manage flows throughout 
        the basin, and to monitor the status of the species for 
        progress towards recovery. Stable long-term funding for on-
        going recovery activities will be essential to realizing the 
        benefits of the capital projects and achieving self-sustaining 
        populations of native fish.

    We are therefore pleased to express our support for the Upper 
Colorado River Endangered Fish Recovery Program and would appreciate 
your continued support of this vital Program by enactment of S. 1578.
            Sincerely,
                                   Dan Luecke,
                                   Bart Miller,
                                           Western Resource Advocates,
                                   Robert Wigington,
                                   Tom Iseman,
                                           The Nature Conservancy.
                                 ______
                                 
 Statement of Dave Freudenthal, Governor, State of Wyoming, on S. 1578
    Madame Chairman and Members of the Water and Power Subcommittee, I 
am pleased to submit this statement urging this Committee to favorably 
consider, and report without amendments, S. 1578. This bill is needed 
to allow completion of the capital construction projects associated 
with the Upper Colorado River and San Juan River Basin Recovery 
Implementation Programs, as authorized by Public Law 106-392 (and 
subsequently amended by Public Law 107-395), That public law authorized 
federal expenditures for the capital construction projects and 
recognized cost sharing being provided by the states, power users, and 
water users. This bill increases the authorized appropriations ceiling 
by $26 Million: $15 Million in additional federal appropriations and 
$11 Million in non-federal cost sharing; and extends the time allowed 
for completion of the Programs' capital construction projects from the 
end of fiscal year 2008 to September 30, 2010,
    Enactment of this legislation is Important to the interests of the 
State of Wyoming. Completion of the Programs' construction projects is 
critical to the recovery of the Colorado River Basin endangered fish 
species. The ongoing and successful Upper Colorado and San Juan every 
programs have, since their initiation in 1988 and 1992, respectively, 
provided a cooperative, workable and effective mechanism for continued 
compliance with the Federal Endangered Species Act for hundreds of 
federal and non-federal water projects in the Upper Colorado River 
basin and the San Juan River basin, including projects that provide 
water to meet tribal needs and that fulfill the federal government's 
trust responsibility to tribes in compliance with the Endangered 
Species Act. Accordingly, continuation of the implementation of these 
recovery program, including the completion of the programs' capital 
construction projects directly benefiting the endangered fish species 
is imperative to our States' ability to continue to develop our 
compact-apportioned water resources.
    S. 1578 does not amend the Federal Endangered Species Act. The 
measure maintains a cap and time-period sunset provision on capital 
construction expenditures as established in the original authorization. 
The impact on the annual federal budget of the increased appropriations 
authorized by S. 1578 is not significant. From 1999 through fiscal year 
2004, Congressional appropriations to the Recovery Programs averaged 
$4.8 Million. Continued appropriations by Congress to the Bureau of 
Reclamation at this level during fiscal years 2008 through 2010 will 
provide the needed funding to complete the capital construction 
projects. The time-period extension (from 2008 to 2010) authorized by 
this legislation is necessary to avoid large annual increases in 
Reclamation's budget--and will allow the Recovery Programs' 
construction program to continue as presently staffed to complete 
ongoing and planned construction projects.
    The current appropriations ceiling authorized by Public Law 106-392 
is $100 Million, of which $46 Million is from appropriations by 
Congress, $17 Million provided by power users, $17 Million provided by 
the four Upper Basin states and $20 Million in additional non-federal 
funding for the cost of replacement power purchased due to modifying 
the operation of the Colorado River Storage Project and the capital 
cost of water dedicated to the benefit of the endangered fish and their 
habitat from Wolford Mountain Reservoir in Colorado. With indexing for 
inflation, the current authorized amount for projects construction in 
the Upper Basin is $64.7 Million. The current total estimated cost to 
complete the Recovery Programs' capital construction projects is $77.2 
Million, revealing an authorization shortfall of $12.5 Million. 
Accordingly, S. 1578 would authorize the expenditure of an additional 
$2.5 Million, to be expended only if needed, to cover unforeseeable 
increases in construction costs through 2010.
    The $12.5 Million shortfall for completing the needed construction 
projects arose for several reasons. The original authorization for 
these Recovery Programs was enacted into law in October 2000. The cost 
estimates for construction projects needed to achieve recovery of the 
endangered species incorporated into Public Law 106-392 were developed 
in the years prior to that enactment, e.g., in the late 1990s. While 
the project list has remained materially the same since that time, 
construction costs have increased faster than the consumer price index 
for the last several years due to the improved economy, increased 
energy costs, and increased world market demand for steel. In addition, 
some unanticipated costs have been experienced with property 
acquisition and access, delays in construction, and unanticipated 
components of fish passages and screens specific to the Colorado River.
    As noted above, Public Law 106-392 recognized as part of the non-
federal cost share a total of $20 Million for the cost of replacement 
power purchased due to modifying the operation of the Colorado River 
Storage Project and the capital cost of water from Wolford Mountain 
Reservoir in Colorado. Revised estimates of power revenue losses due to 
Colorado River Storage Project re-operation to benefit endangered 
species indicate that the loss will be $7.1 million over the original 
$15 million estimated. In addition, water users are providing 
additional cost sharing of $3.9 million for the Elkhead reservoir 
Enlargement Project, bringing the total non-federal cost sharing from 
power losses and water users to $31 million, rather than $20 million 
originally estimated from these sources in P.L. 106-392. This 
legislation, S. 1578, recognizes and includes these additional non-
federal expenditures in its upward adjustment of the capital 
construction appropriations ceiling to a total authorization of $126 
Million. The non-federal share will be $65 Million and the federal 
share, as adjusted upon enactment of this bill, will be $61 Million.
    The Recovery Programs' dual objectives of recovery while 
accommodating additional water resources development in the Basin 
represent the best approach yet devised to resolving the conflict 
between the federal Endangered Species Act (ESA) and water development 
needs. State and federal agencies, Indian tribes and private 
organizations are cooperating through these two recovery programs to 
achieve recovery of endangered fish while meeting continuing demands 
for water in the arid West. The recovery programs are serving as 
national models for how willing partners can use effective, 
collaborative partnerships to meet important needs.
    Application of the ESA in Wyoming's portion of the Upper Colorado 
River Basin has not impeded our ability to develop our water resources 
since the Upper Colorado Recovery Program's initiation in 1988. This 
is, in my view, a critical and key measure of the Program's success in 
meeting its commitment to allowing needed water development to proceed 
in compliance with the ESA. Further, the programs' participants are 
making substantial progress towards recovery of the four endangered 
fish species. After completing the Programs' capital construction 
projects--once these facilities are ``on the ground'' and operating--we 
will have taken those steps that our Program's biologists believe are 
necessary for the four endangered fish species to reach self-sustaining 
population levels needed for downlisitng and recovery.
    Thank you for the opportunity to submit this testimony. I request, 
in addition to your consideration of its contents, that you make it a 
part of the formal hearing record concerning this important legislation 
needed to complete the capital construction projects associated with 
the Upper Colorado River and San Juan River Basin Endangered Fish 
Recovery Implementation Programs.


</pre></body></html>
